<html>
<title> - THE INTERNATIONAL ASPECTS OF FISH AND WILDLIFE CONSERVATION AND MANAGEMENT ACTIVITIES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
   THE INTERNATIONAL ASPECTS OF FISH AND WILDLIFE CONSERVATION AND 
                         MANAGEMENT ACTIVITIES

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, April 29, 2004

                               __________

                           Serial No. 108-92

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                ______

93-383 PS                   Washington: 2004

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001



                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Ron Kind, Wisconsin
    Carolina                         Madeleine Z. Bordallo, Guam
Randy Neugebauer, Texas              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, April 29, 2004.........................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     2
        Article submitted for the record.........................    43
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey, Prepared statement of.......................     4

Statement of Witnesses:
    Balton, David A., Deputy Assistant Secretary for Oceans and 
      Fisheries, Bureau of Oceans and International Environmental 
      and Scientific Affairs, U.S. Department of State...........     5
        Prepared statement of....................................     8
    Grasso, Thomas V., Director, Marine Conservation Policy, 
      World Wildlife Fund........................................    27
        Prepared statement of....................................    29
    Hogarth, Dr. William T., Assistant Administrator for 
      Fisheries, National Marine Fisheries Service, National 
      Oceanic and Atmospheric Administration, U.S. Department of 
      Commerce...................................................    13
        Prepared statement of....................................    15
    Stansell, Dr. Kenneth B., Assistant Director, International 
      Affairs, Fish and Wildlife Service, U.S. Department of the 
      Interior...................................................    21
        Prepared statement of....................................    23


  OVERSIGHT HEARING ON THE INTERNATIONAL ASPECTS OF FISH AND WILDLIFE 
                CONSERVATION AND MANAGEMENT ACTIVITIES.

                              ----------                              


                        Thursday, April 29, 2004

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
Room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Present: Representatives Gilchrest, Saxton, Pallone and 
Bordallo.

STATEMENT OF HON. WAYNE GILCHREST, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Subcommittee will come to order. Thank 
you very much for coming and being on time this morning. We try 
to be punctual, and I apologize for being a little bit late. We 
look forward to your testimony this morning on the 
international agreements.
    I will ask that my full statement be submitted for the 
record and I will just make a few comments before we begin.
    The international agreements that the U.S. has over the 
years become involved with, from my perspective, are vital and 
important. The exchange of information between different 
countries and different peoples, different cultures, about 
sustaining the planet's resources are fundamental to being 
human, and they're fundamental to adjudicating some of these 
more conflicting issues between nations. They are fundamental 
to conservation and they are fundamental to consequences.
    So we would like to hear your input this morning on these 
agreements, on the dollar amounts that are appropriated for 
these different commissions, and whether or not some of these 
commissions, because of some of the discussions recently in 
Congress about how many there are and how much they cost, if 
some of these commissions couldn't be consolidated, especially 
in the North Atlantic and in the North Pacific between the 
United States and Canada, and maybe a few other countries.
    We look forward to your testimony this morning, and we want 
to be a part of this ongoing process of recognizing the 
importance of the world's oceans.
    [The prepared statement of Mr. Gilchrest follows:]

    Statement of The Honorable Wayne Gilchrest, a Representative in 
                  Congress from the State of Maryland

    Good morning. I would like to welcome our witnesses.
    The United States is a member of many international fish and 
wildlife conservation and management organizations. The purpose of 
these international organizations is to ensure that all of the nations 
which make use of the ocean's resources do so in a sustainable manner.
    As we have heard at a number of hearings over the past few years, 
the United States has been a world leader in conservation activities. 
We have implemented many conservation measures domestically; however, 
for those species that span many international boundaries, we cannot do 
the job alone.
    At a recent hearing on Atlantic tuna conservation activities and 
white marlin recovery efforts, we heard that the United States 
represents only about five percent of the total world's catch of marlin 
and the conservation measures that we have enacted domestically could 
not achieve the rebuilding targets without international cooperation.
    Our domestic efforts alone cannot get us to the recovery level that 
we need for Atlantic marlin species. The United States delegation has 
continued to push for binding catch limits and trade sanctions against 
those nations that do not adhere to the international conservation 
measures. That is not only commendable, but the only way we will 
achieve conservation for this important fishery.
    In addition, the United States has developed new fishing 
technologies that will reduce turtle bycatch in longline fisheries by 
up to 95 percent. This was originally tested on the East Coast and is 
now being used in West Coast fisheries. As we further refine this new 
gear configuration and see promising results, we are now also 
encouraging other countries to adopt this new gear to help reduce 
turtle mortality around the world. This is the type of leadership that 
we need to continue at all of these international meetings.
    The topic of today's hearing is the international aspect of United 
States fish and wildlife conservation and management activities. This 
is an opportunity for Members of this Subcommittee to hear more about 
the challenges that we face in the future at these international 
meetings and the successes that we have achieved in the recent past.
    The United States needs to be an active part of the international 
conservation and management community and needs to honor its 
commitments to the international organizations that it is a party to. 
In addition, we need to continue to lead the world in developing new 
conservation and management agreements before fishery resources become 
depleted. It is much easier to allocate and manage a healthy fishery 
than to try to force cuts on the international fishing fleets that rely 
on the resource after the resource has dwindled.
    I look forward to hearing more about some of the upcoming meetings 
that the U.S. will be attending including the International Whaling 
Commission and CITES. I hope we will hear testimony on what issues the 
Administration will be working on in the months leading up to these 
meetings. I look forward to this Subcommittee, and Congress in general, 
taking part in the discussions leading up to the final U.S. positions 
for these meetings. In particular, I look forward to the U.S. hosting 
the next meeting of the International Commission for the Conservation 
of Atlantic Tunas in New Orleans in November.
    I yield to the Ranking Member, Mr. Pallone, for any opening 
statement he may have.
                                 ______
                                 
    Mr. Gilchrest. I will yield now to the gentleman from New 
Jersey, Mr. Pallone, for any statement he may have.

 STATEMENT OF HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Today's hearing on the status of U.S. participation in 
various international fisheries and wildlife treaties is 
timely, in light of the U.S. Commission on Ocean Policy's 
preliminary report to the Governors released just last week. In 
fact, on Monday night of this week, we had a forum in my 
district in conjunction with our State Department of 
Environmental Protection on the Ocean Policy's recommendations.
    This Subcommittee will soon consider many of the 
recommendations in the Commission's report, more specifically, 
the recommendations on how the U.S. will help govern the oceans 
with our international partners.
    One of the cross-cutting recommendations of the 
Commission's report was the application of ecosystem-based 
strategies for the management of our Nation's natural ocean 
resources. The Commission also notes the importance in how the 
U.S. and our international partners govern resources of global 
significance, because after all, the ultimate eco-system is the 
Earth and many of the resources on the planet, both living and 
nonliving, do not conform to jurisdictional boundaries created 
by humans.
    Mr. Chairman, the U.S. has been and continues to be a 
leader in looking beyond borders to ensure the survival of so 
many of the world's greatest natural living resources. One 
example of the U.S. commitment to global conservation is H.R. 
3378, the Marine Sea Turtle Conservation Act, which just last 
week was reported out of the Subcommittee by unanimous vote.
    Conservation programs such as this have been instrumental 
in leveraging tens of millions of nonFederal matching funds and 
in forging alliances with our domestic and international 
partners and stakeholders. They are examples of how a small 
investment can make a profound difference in global 
conservation and management efforts.
    The U.S. also participates under numerous international 
agreements, conventions and commissions which oversee the 
conservation and management of commercially valuable species. 
Some of these commissions include the International Commission 
for the Conservation of Atlantic Tunas, ICCAT, and the 
International American Tropical Tuna Commission.
    I just want to say that I continue to be a strong supporter 
of our participation in these intergovernmental organizations. 
However, I am concerned by the lack of full funding to support 
them, which has also been a major issue in the U.S. Ocean 
Commission's report, as well as I'm concerned about these 
recent allegations of observer bribery in the Eastern Tropical 
Pacific Commercial Tuna Fishery.
    To illustrate these points, consider that the Fiscal Year 
2003 and 2004 appropriations for international fisheries 
commissions was $3.5 million less than what was requested by 
the Bush Administration. The lack of full funding jeopardizes 
the commitments we have made to the international community to 
support global conservation and management efforts, and puts 
our domestic fishermen's livelihoods on the line.
    Furthermore, I am troubled by an article in yesterday's San 
Francisco Chronicle that reports widespread bribery of tuna 
boat observers in the ETP tuna fishery, many of whom are under 
the authority of the IATTC, in exchange for the falsification 
of marine mammal bycatch data. Because of these current events, 
I would encourage the Congress to take heed of the recent 
recommendations of the U.S. Commission on Ocean Policy and work 
hard to secure sufficient funding and to increase the integrity 
of these commissions.
    Thanks a lot, Mr. Chairman. I look forward to the 
witnesses.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    The other gentleman from New Jersey, Mr. Saxton.
    Mr. Saxton. Mr. Chairman, I have an opening statement and I 
will just ask unanimous consent to have it included in the 
record.
    Mr. Gilchrest. Without objection.
    [The prepared statement of Mr. Saxton follows:]

  Statement of The Honorable Jim Saxton, a Representative in Congress 
                      from the State of New Jersey

    Good morning Mr. Chairman, and members of the subcommittee. I am 
pleased to be here today to talk about a number of issues related to 
the conservation of our natural resources. I appreciate the witnesses 
taking time out of their schedules to be with us today.
    The issues surrounding the activities of managing fish and wildlife 
domestically are challenging, and when you move that into the 
international arena, they become much more difficult. The United States 
is a signatory to numerous bilateral and multilateral treaties, as well 
as a participant in numerous conventions and commissions, regarding the 
conservation and management of fish and wildlife.
    One of these commissions, the International Commission for the 
Conservation of Atlantic Tunas, or ICCAT, is one which I believe needs 
to be closely examined and perhaps modified. Though the Commissioners 
who represent the United States during these annual meetings and 
negotiations do a tremendous job of ensuring the quotas are fair and 
balanced, it is many of the other countries, including Japan and Spain, 
that are not playing by the rules and adhering to the numbers worked 
out every year.
    For this reason, last summer, I along with on which Mr. Gilchrest, 
Mr. Faleomavaega and Mr. Pallone, introduced House Concurrent 
Resolution 268, which passed out of this Committee and then was passed 
by the Full House on October 28, 2003. This resolution expresses the 
sense of Congress regarding the imposition of trade sanctions on 
nations that are undermining the effectiveness of conservation and 
management measures for Atlantic marlin adopted by the International 
Convention for the Conservation of Atlantic Tunas (ICCAT) and that are 
threatening the continued viability of United States commercial and 
recreational fisheries.
    Several hearings have been held prior to this one to examine these 
issues, and it is my hope we can examine them further and hopefully 
draw some conclusions as to how we ought to proceed. One of the most 
pressing issues which ICCAT is currently dealing with is illegal, 
unreported, and unregulated (IUU) fishing with respect to Atlantic 
white marlin and bluefin tuna. If the agreements made every year among 
the many participating countries are not adhered to by all, thereby 
defeating the purpose of setting limits in the first place.
    In addition to IUU, another big obstacle is that of compliance--on 
many levels. For example: as more than 90 percent of the world's fish 
are taken within countries' EEZs, how do we get compliance with 
international fishery regimes within countries' EEZs? Another part of 
the compliance issue is: Since white marlin has been petitioned for 
listing under the U.S. Endangered Species Act and the problem is 
international fishing pressure, how do we get compliance on marlin 
conservation measures already in place?
    Finally, ICCAT was created to protect these species and to work 
toward attainable management goals to ensure their survival. One 
question which could be logically asked of this process is: what 
mechanisms are there within ICCAT to insure compliance with member 
nations?
    I have for a very long time been concerned with the dramatic drop 
in population of white marlin. Prior to the 1960s these species were 
healthy and thriving, just before the introduction of pelagic longline 
fishing in the Atlantic Ocean. Since this time, the species has 
steadily plummeted. The latest stock assessment I have seen indicates 
the total Atlantic stock population had declined to less than 12 
percent of its maximum sustainable yield level; current fishing 
mortality was estimated to be at least seven times higher than the 
maximum sustainable level; over fishing had taken place for over three 
decades and the stock is less productive than previously estimated, 
with a maximum sustainable yield of less than 1300 metric tons. The 
bottom line--this species needs an immediate strong conservation 
measure or it may disappear forever.
    The passage out of the House of H. Con. Res. 268 represents an 
important step in the process of the international conservation of this 
dwindling species. I have spent a great deal of time on this issue, it 
is important we recognize the bottom line is pelagic longline fishing 
is an indiscriminate, irresponsible way of fishing. Though the U.S. 
longline fleet does contribute to the taking of this species, the 
majority of bycatch comes from the international fleets and this needs 
to be stopped.
    I was pleased that the Recreational Fishing Alliance (RFA) filed a 
petition with the U.S. Trade Representative, requesting the President 
take action against the European Union under Section 301 of the Trade 
Act of 1974, as amended. Though this petition was withdrawn, this issue 
remains a critical one.
    As a contracting nation, the U.S. has a history of compliance with 
ICCAT quotas and conservation measures. However, the European Union, 
particularly Spain and Portugal, has a history of serious non-
compliance with ICCAT. For example, the EU has consistently exceeded 
catch limits, quotas, and landing limits for Eastern Atlantic bluefin 
tuna and ignored rules for the protection of juvenile swordfish.
    In deciding that the white marlin does not warrant as threatened or 
endangered under the Endangered Species Act (ESA), the National Marine 
Fisheries Service said the U.S. accounts for approximately five percent 
of the total mortality of white marlin, while the rest is due to 
bycatch in international longline fisheries. And the decision could 
still ultimately be made to list this species.
    The petition alleges that the EU has committed three unfair trade 
practices under Section 301 including: noncompliance with ICCAT catch 
limits, quotas, and landing limits for certain species of highly 
migratory fish, non-compliance with ICCAT rules for the protection of 
juvenile fish, and granting subsidies to its fishing industry through 
its Common Fisheries Policy in violation of the WTO Subsidies 
Agreement.
    The U.S. is a world leader on so many important and complex issues; 
I do not understand why the issue of fisheries management and 
enforcement of the regulations currently in place both domestically and 
internationally, seems impossible to accomplish. I look forward to 
working with all of you to find a solution to this grave problem. I 
fear if we do not, many of these species may simply disappear forever, 
which would be tragic.
    Thank you, and I look forward to hearing the witnesses' testimony.
                                 ______
                                 
    Mr. Gilchrest. Gentlemen, thank you for coming this 
morning. We have Mr. David Balton, Deputy Assistant Secretary 
for Oceans and Fisheries, Bureau of Oceans and International 
Environmental and Scientific Affairs from the Department of 
State; Dr. William Hogarth, Assistant Administrator for 
Fisheries, the National Marine Fisheries Service of NOAA--you 
made it back from that difficult Pacific island, Dr. Hogarth.
    Also, Dr. Kenneth Stansell, Assistant Director for 
International Affairs, U.S. Fish and Wildlife Service, 
Department of Interior; and Mr. Thomas Grasso, Director, Marine 
Conservation Policy, World Wildlife Fund.
    Gentlemen, thank you very much for coming this morning. Mr. 
Balton, you may begin, sir.

  STATEMENT OF DAVID A. BALTON, DEPUTY ASSISTANT SECRETARY OF 
     STATE FOR OCEANS AND FISHERIES, U.S. STATE DEPARTMENT

    Mr. Balton. Thank you, Mr. Chairman, members of the 
Subcommittee, for the opportunity to appear before you today. I 
have a written statement and ask your permission for it to be 
submitted for the record.
    Mr. Gilchrest. Without objection.
    Mr. Balton. I will try to highlight some of the points 
discussed in that statement this morning that I think may be of 
most interest.
    As Congressman Pallone noted, the U.S. Commission on Ocean 
Policy released its preliminary report just last week. It 
presents a picture of the oceans that is worrisome. In the 
field of international fisheries, the United States and other 
governments are grappling with problems of over-fishing, 
overcapacity, and depletion of some key fish stocks.
    We have embarked on a long but needed transition to 
ecosystem-based fisheries management. This will entail, among 
other things, doing a better job of minimizing bycatch of 
nontarget species and reducing other adverse consequences of 
fishing on the marine environment. At the same time, we are 
also seeking a level playing field in which U.S. vessels and 
fishermen can compete fairly with fishers from other countries.
    We can be proud of the leadership of the United States on 
these issues. We have made progress on a variety of fronts, 
particularly through the conclusion of several new forward-
looking agreements. But much work still lies ahead.
    In my 13 years of working on U.S./Canada fisheries issues, 
I can say that we have never enjoyed such a strong relationship 
with our neighbors to the north. Although the two nations face 
daily challenges in managing shared resources off both coasts 
and in the Great Lakes, we are now facing them in a very 
constructive spirit. Several years ago we reached agreement to 
overhaul operations under the Pacific Salmon Treaty, we forged 
a new regime to share and manage the salmon in the Yukon River. 
More recently, we agreed to amend the 1981 Pacific Albacore 
Treaty to limit fishing effort by vessels of each party in the 
waters of the other. Thanks to strong congressional support and 
the enactment of H.R. 2584, we are now working to bring these 
amendments into force in time for this year's fishing season.
    Finally, with Canada we have a new agreement to share the 
valuable stock of the Pacific whiting, also known as Pacific 
hake. We hope to have this treaty before the Senate promptly, 
and we look forward to working with Congress on implementing 
legislation.
    Let me mention briefly two new treaties to manage tuna 
stocks and related species in the Pacific. The first treaty 
will create a new international commission to manage fisheries 
in one of the last areas not yet covered by such a regime, the 
central and western Pacific. The United States has very 
significant interests in these fisheries and has contributed 
greatly in crafting the new arrangements. Fourteen nations have 
thus far ratified the treaty, and it will enter into force this 
June. Japan and South Korea initially objected to the treaty, 
but we have persuaded them to engage fully in the preparatory 
process.
    The Department of State is preparing the package for 
submittal of this convention to the Senate, and new legislation 
would also be needed. Once again, we look forward to working 
with you and others in Congress in crafting this.
    The other new treaty is not actually new. It's a 
substantial revision of the 1949 treaty that created the Inter-
American Tropical Tuna Commission that Mr. Pallone mentioned 
earlier. These revisions will update the treaty to reflect 
advancements in fishery conservation over the past half 
century. Once again, we are in the process of submitting this 
treaty to the Senate and, once again, we would look forward to 
working closely with you and others in Congress on certain 
amendments to the Tuna Conventions Act that would be necessary.
    The Committee asked about work at the Food and Agriculture 
Organization of the U.N. That organization continues to serve 
as the best forum in which to address fisheries issues on a 
global level. Largely in response to our calls, the FAO is 
convening an unprecedented set of policy level meetings this 
year. One will deal with over-capacity and illegal or IUU 
fishing. A second will consider ways to move forward on 
disciplining subsidies to the fishery sector. Still another 
will seek new port state controls to crack down on illegal 
fishing, and a final one, which I will turn to in a moment, 
will deal with the conservation of sea turtles. We would 
welcome congressional participation in any of these important 
meetings.
    In connection with FAO, I am also pleased to announce the 
Administration has completed work on a comprehensive U.S. 
national plan of action on illegal, unregulated and unreported 
fishing. It contains numerous recommendations for dealing with 
this problem, both in our own waters and beyond. I would look 
forward to returning to Congress soon to present this plan in 
detail.
    Let me spend a moment talking about the protection of sea 
turtles more specifically. We have focused considerable time, 
effort and resources. We vigorously implement the U.S. law that 
prohibits the importation of shrimp harvested in ways that harm 
endangered sea turtles. We are also the driving force behind 
two multilateral agreements to protect sea turtles, one for the 
western hemisphere and one in the Indian Ocean and South Asia 
region.
    We have made strides in protecting sea turtles from 
longline fisheries as well. We have advanced a strategy through 
a series of successful international gatherings over the past 2 
years, and with the Government of Japan, we have persuaded FAO 
to convene a policy level meeting on sea turtle conservation 
later this year, a first for that organization, and the first 
global meeting to address sea turtle conservation ever.
    We hope that the FAO process will produce, among other 
things, agreement on interim measures to reduce bycatch of sea 
turtles and longline fisheries, while further data collection 
and research proceeds. We will also press forward in other 
organizations, including the IATTC, ICCAT, and the new 
Commission for the Central and Western Pacific.
    Mr. Chairman, as you note, all these efforts require 
funding. U.S. dues and related expenses to the international 
fisheries commissions have in recent years amounted to 
approximately $20 million annually. In Fiscal Year 2003, 
Congress provided only about $17 million for these purposes, 
and allocated no funding at all for the Pacific Salmon 
Commission that year. By reprogramming funds in Fiscal Year 
2003, the Administration was able to pay enough to most 
commissions to allow essential work to proceed.
    However, we are in arrears in our contributions to several 
commissions, despite an increase in funding in Fiscal Year 
2004. For this year, 2004, we will soon propose another 
reprogramming, again with a view to allow all essential 
functions to continue. We certainly hope that Congress will 
meet the President's request for Fiscal Year 2005 for full 
funding of these vital commissions.
    Mr. Chairman, thank you very much for this opportunity to 
testify. I would be happy to answer any questions the 
Subcommittee may have.
    [The prepared statement of Mr. Balton follows:]

 Statement of David A. Balton, Deputy Assistant Secretary of State for 
             Oceans and Fisheries, U.S. Department of State

Introduction
    I would like to thank you, Mr. Chairman and the Members of this 
Subcommittee, for the opportunity to appear before you today. With the 
release of the preliminary report of the U.S. Commission on Ocean 
Policy last week, I believe that this is a particularly apt time for us 
to be considering the issues that are the subject of this hearing. My 
statement today attempts to respond to the requests of the Subcommittee 
for information on each of the topics listed in your letter of 
invitation to testify. I will also briefly note a few other topics that 
I believe would be of interest.
    The overall picture concerning international fisheries remains 
worrisome, in my view. With other governments, the United States is 
grappling with problems of overfishing, overcapacity and depletion of 
key fish stocks. We are also striving to reduce bycatch of non-target 
species in commercial fisheries and to address other adverse 
consequences of fishing on the marine environment. At the same time, 
the United States is seeking a level playing field in which U.S. 
vessels and fishermen can compete fairly with the fishers from other 
countries.
    I think that we can be proud of the leadership that the United 
States has demonstrated in recent years on these issues. As my 
statement today suggests, we have made progress on a variety of fronts, 
particularly through the conclusion of several forward-looking new 
agreements in the field of international fisheries. Many challenges 
still lie ahead, however.
Bilateral Issues with Canada
    Recent Amendments to the 1981 U.S.-Canada Albacore Treaty. This 
treaty originally permitted unlimited fishing for Pacific albacore tuna 
by vessels of each Party in waters under the jurisdiction of the other 
Party. Since the entry into force of the treaty, however, most of the 
tuna appear to have shifted their migratory patterns in a southerly 
direction. As a result, U.S. fishers have fished significantly in 
Canadian waters only in approximately three out of the last twenty 
years, while Canadian fishers have continued to fish regularly in U.S. 
waters. Since 1998, moreover, Canada more than doubled its albacore 
tuna fishery in U.S. waters, from its historical average of 75 vessels 
to 200 or more vessels per year.
    Prompted by concerns of the U.S. industry over the growing inequity 
in the balance of benefits under the treaty, the United States entered 
into negotiations with Canada with a goal to reduce Canadian fishing 
effort in U.S. waters and to create a fishery limitation mechanism to 
conserve and manage the stock. The negotiations culminated in an 
agreement that does just that. We agreed to amend Article 1(b) of the 
Treaty to allow for limits on the levels of fishing effort by vessels 
of each Party in the waters of the other Party. In addition, we agreed 
to amend the technical annexes of the Treaty to establish an initial 
three-year reciprocal fisheries limitation regime that reduces the 
permitted fishing effort each year until a level is reached in the 
third year that is slightly above the pre-1998 average level of 
fishing.
    Last year, the Senate provided its advice and consent to the 
amendment to Article 1(b) of the Treaty. Earlier this year, Congress 
enacted legislation to allow for full implementation of the Treaty as 
amended as part of H.R. 2584. President Bush signed the legislation on 
April 13, 2004 (Public Law 108-219). The very next day, U.S. and 
Canadian delegations reached agreement on steps to implement the 
amendment to Article 1(b) and related amendments to the technical 
annexes to the Treaty, beginning with the 2004 fishery.
    Several steps remain to be taken in order for this new arrangement 
to become effective. The Governments of the United States and Canada 
must exchange diplomatic notes formally bringing the amendment to 
Article 1(b) of the Treaty into force. The Government of Canada must 
modify its fishing plan for this fishery in accordance with these 
amendments, which it has agreed to do expeditiously. The National 
Marine Fisheries Service must finalize its own implementing 
regulations. The Administration is extremely hopeful that all these 
steps will be taken in such time that the new arrangements will govern 
the fishing season that begins in June of this year.
    New U.S.-Canada Agreement on Pacific Whiting. After years of 
negotiations, the United States and Canada signed a new agreement last 
November that resolved a dispute over the management and sharing of the 
valuable transboundary stock of Pacific whiting, also known as Pacific 
hake. The new Agreement formalizes U.S. and Canadian scientific 
collaboration to assess the health of the stock each year and 
establishes both a long-term harvest policy and percentage shares of 
the annual catch for each Party. A long-standing disagreement over the 
appropriate allocation of this shared resource had contributed to 
recent declines in the stock.
    The Agreement allocates nearly 74 percent of each year's harvest to 
U.S. fishermen; the remainder goes to Canada. The successful conclusion 
of this agreement was due in large part to the close collaboration and 
assistance of fishing industry representatives from both sides of the 
U.S.-Canada border, and they strongly support the result.
    The Secretary of State has recently made the official 
recommendation to the President to submit the new Agreement to the 
Senate for its advice and consent to ratification. The Administration 
also looks forward to working with this Subcommittee and others in 
Congress to develop the necessary implementing legislation. In the 
meantime, we have urged those involved in the fishery to follow the 
general provisions of the new Agreement pending its formal entry into 
force.
Western and Central Pacific Fisheries Commission (WCPFC)
    The Convention on the Conservation and Management of Highly 
Migratory Fish Stocks in the Western and Central Pacific Ocean (WCPFC) 
was adopted in September 2000. The WCPFC will establish a regional 
fisheries management organization for valuable tuna resources in one of 
the last areas of the ocean not yet covered by an international 
management regime. The objective of the WCPFC is to ensure the long-
term conservation and sustainable use of highly migratory fish stocks 
through forward-looking provisions that implement principles of the 
1995 United Nations Fish Stocks Agreement, including compliance and 
enforcement, bycatch of non-target species, and the precautionary 
approach, while balancing the interests of both coastal and distant 
water states. As both a coastal state and a distant water fishing 
state, the United States has a significant interest in the fisheries of 
the Western and Central Pacific Ocean. As such, the United States 
strongly supports the WCPFC and has participated actively in the 
preparatory meetings to establish the administrative framework for the 
new Commission over the last four years.
    The WCPFC will enter into force on June 19, 2004. To date, fourteen 
States have ratified the Convention. The inaugural meeting of the WCPFC 
Commission will be held in December 2004, with the first annual meeting 
likely taking place in the spring of 2005. Due in large part to a U.S.-
led effort to promote full participation in the WCPFC, Japan and South 
Korea, which objected to the adoption of the Convention in 2000, are 
fully engaged in the work of the preparatory process. In addition, at 
the most recent WCPFC preparatory meeting, which was held last week in 
Indonesia, Japan, South Korea, China, and Chinese Taipei, among others, 
made known that they were proceeding with their internal processes and 
intended to become bound to the Convention in the near term.
    The Department of State is in the process of preparing the package 
by which the President may submit the Convention to the Senate. New 
legislation would also be needed to implement U.S. obligations under 
the Convention. Once again, the Administration looks forward to working 
with this Subcommittee and others in Congress in developing such 
legislation.
South Pacific Tuna Treaty Extension
    This treaty, which allows U.S. vessels to fish for tuna in the 
waters of 16 Pacific Island States, entered into force in 1988 and was 
amended and extended in 1993 for a 10-year period through June 14, 
2003. In March 2002, the United States and the Pacific Island Parties 
concluded negotiations to extend the operation of this Treaty for an 
additional 10-year period, through June 14, 2013, with amendments to 
certain provisions of the Treaty, its Annexes, and the associated 
Economic Assistance Agreement. The United States and the Pacific Island 
Parties agreed on the number of fishing licenses (45), the annual level 
of industry licenses fees ($3 million USD), and the annual level of 
economic assistance provided by the U.S. Government under the Economic 
Assistance Agreement associated with the Treaty ($18 million USD). The 
amendments to the Treaty and its Annexes will, among other things, 
enable use of new technologies for enforcement, streamline the way any 
further amendments to the Annexes are agreed, and modify the waters 
that are open and closed under the Treaty. The Senate provided its 
advice and consent to the amendments to the Treaty in 2003. In 
addition, H.R. 2584 (Public Law 108-219), amended Section 6 of the 
South Pacific Tuna Act 1988, to take account of the Amendment to 
paragraph 2 of Article 3, ``Access to the Treaty Area,'' which permits 
U.S. longline vessels to fish on the high seas of the Treaty Area.
    The Treaty provides considerable economic benefit to all parties, 
with the value of landed tuna contributing between $250-$400 million 
annually to the U.S. economy. Nearly all of this fish is landed in 
American Samoa and processed in two canneries located there, one of 
which is owned by U.S. interests. These canneries, and related 
activities, account for more than 80 percent of the private-sector 
employment in that territory.
UN FAO Committee on Fisheries
    The Administration continues to view the Food and Agriculture 
Organization (FAO) of the United Nations as the international 
organization with the membership, the mandate and the expertise to 
address global sustainable fisheries problems. Since the adoption of 
the 1993 High Seas Fishing Compliance Agreement and the 1995 Code of 
Conduct for Responsible Fisheries, the FAO Committee on Fisheries has 
been turning its attention on specific problems facing international 
fisheries with the development and adoption of four International Plans 
of Action.
    One of these ``IPOAs'' seeks to address the problem of excess 
fishing capacity. Another provides the basis for conserving and 
managing sharks stocks. A third provides a menu of measures to minimize 
the by-catch of seabirds in longline fisheries. The final and most 
recent IPOA gives nations a comprehensive toolbox of measures to crack 
down on illegal, unreported and unregulated (IUU) fishing. FAO is also 
attempting to improve the quality of capture fisheries and aquaculture 
``status and trends'' data that member governments send it. The 
Departments of Commerce, Interior, Homeland Security (Coast Guard) and 
State, as well as U.S. industry representatives and a variety of 
nongovernmental organizations, have contributed to strong U.S. 
leadership of these efforts at the FAO.
    The IPOAs call upon each FAO member to take a series of actions to 
address the problems in question. I am pleased to report that, as 
envisioned in the IPOA to combat IUU Fishing, the United States has 
developed its own National Plan of Action on IUU Fishing, which is now 
complete and ready to be distributed and to be used. We look forward to 
working with this Subcommittee and other members of Congress on some of 
the recommendations it contains.
    The international community relies primarily on regional fishery 
management organizations for regional implementation of approaches 
designed by FAO. We have sought to use two additional tools to 
implement important FAO recommendations. First, we are buttressing this 
effort both through our regular bilateral discussions with fishing 
states. Second, since the 21 members of Asia-Pacific Economic 
Cooperation (APEC) have the highest per capita consumption of fish, 
possess almost 75 percent of the world's capture fisheries harvesting 
capacity and engage in the majority of global trade in fish and fish 
products, we have sought to use the APEC Fisheries Working Group to 
build capacity in APEC Economies to carry out the FAO recommendations. 
This global, regional and bilateral approach requires considerable time 
and energy to pursue, but we believe it will bring benefits over time.
    I wish to observe that, while we have an array of new international 
instruments with which to combat unsustainable fishing practices, 
progress in implementing them is slow. The 1995 U.N. Fish Stocks 
Agreement and the FAO Compliance Agreement have entered into force. 
Some regional fishery management organizations are reducing fishing 
capacity within their convention areas. Some governments are producing 
national plans of action but, generally speaking, developing States 
still lack the capacity to undertake many of the steps contemplated. We 
are reaching out to the international donor community to work with us 
in providing needed assistance.
    Capacity Reduction. The International Plan of Action for the 
Management of Fishing Capacity was adopted by FAO in 1999. While there 
was wide agreement that the global fishing fleet is too large and had 
too much fishing power, agreeing on how to measure fishing capacity has 
been difficult. Similarly, there was wide agreement that some subsidies 
contributed to the ``overcapacity'' problem, but no agreement on how to 
differentiate between ``good'' subsidies and ``bad'' subsidies in this 
respect. A series of FAO expert meetings tried to devise mechanisms 
through which capacity could be measured and subsidies could be 
evaluated. In late June (June 24-29), FAO will convene a political 
level ``technical consultation'' at which FAO members can reach 
agreement on how to carry out the steps outlined in the IPOA on 
Capacity. These discussions will also focus on additional steps the 
international community must take to make the IUU IPOA a successful 
deterrent to illegal, unreported and unregulated fishing. A third 
consultation will take place June 30-July 2, on the use of subsidies in 
the fisheries sector. Working with the Office of the U.S. Trade 
Representative, we will also be supporting the United States' efforts 
to improve disciplines on harmful fisheries subsidies in the current 
WTO negotiations and will seek to ensure that the work in the WTO and 
the FAO is complementary.
    This is an important series of FAO meetings and I would welcome 
Congressional participation on our delegation to any of them. I will 
report the results of the meetings to the Subcommittee in any event.
    Eco-labeling: FAO will also host a technical consultation on eco-
labeling from October 19-22, 2004. As you know, this is also a complex 
and difficult subject. Many producers of seafood products--and some 
governments--are trying to respond to demands by consumers around the 
world not only for information about the country of origin, but also 
information about the sustainability of production of the seafood they 
purchase. Some say that independent ``third party'' bodies, rather than 
the producers of the seafood products, should be the ones to award eco-
labels that attest that the product was harvested or produced 
sustainably. A meeting of experts convened by the FAO in December 2003 
endorsed that approach. Others predict that such an approach will lead 
to problems, however. Perhaps there is a middle ground, but the debate 
will certainly continue. Again, we welcome Congressional participation 
on our delegation to this October meeting and we will keep you informed 
of progress in this area.
Whales and International Whaling Commission (IWC) issues.
    The United States supports the IWC's moratorium on commercial 
whaling, aboriginal subsistence whaling and efforts to complete the 
Revised Management Scheme (the management scheme that would apply if 
the commercial moratorium were ever lifted). We have long opposed 
lethal scientific/research whaling, whaling within the sanctuaries 
established by the IWC and international trade in whale products.
    In 2004, the United States will continue to monitor the whaling 
activities of Japan, Norway and Iceland. During 2003, Iceland began a 
lethal research whaling program, under Article VIII of the Whaling 
Convention, and took 36 Minke whales. Japan continues to allocate to 
itself research whaling quotas that result in an annual take of about 
700 whales in the North Pacific and around Antarctica. Norway continues 
to engage in commercial whaling under an objection to the 1982 
moratorium decision. Norway's unilateral quota for 2004 will be 670 
Minke whales. We have consistently opposed the research whaling 
activities of Iceland and Japan and Norway's commercial hunt.
    We are also monitoring international trade in whale products. 
Norway resumed trade in 2002, and has sent whale products to Iceland 
and to the Faroe Islands. The next IWC meeting is scheduled for the 
week of July 19-22, 2004 in Sorrento, Italy.
Protection and Conservation of Sea Turtles
    The Administration has focused considerable time, effort and 
resources to address the impact of international commercial fisheries 
on sea turtle populations and to protect sea turtles generally. These 
efforts include reduction of sea turtle bycatch in shrimp trawl 
fisheries through the implementation of Section 609 of P.L. 101-162, 
negotiation of and participation in multilateral sea turtle 
conservation agreements, and implementing an international strategy to 
address bycatch of sea turtles in longline fisheries.
    Section 609 prohibits imports of shrimp from countries that do not 
take steps comparable to those of the United States to protect sea 
turtles in commercial shrimp trawl fisheries. The law is implemented by 
the Department of State, with considerable support from NOAA Fisheries 
on technical and compliance issues. The implementing guidelines 
published by the Department of State require either the use of turtle 
excluder devices (TEDs) on commercial shrimp trawl vessels or other 
conservation measures of comparable effectiveness if the harvesting 
nation seeks to export that shrimp to the United States. State and NOAA 
Fisheries teams visit these countries to review compliance by each 
affected country on a regular basis. Countries that do not have 
measures to protect sea turtles that are comparable in effectiveness to 
U.S. measures are denied the ``certification'' necessary for continued 
market access. The annual certification for 2004 will be coming up to 
Congress within a few weeks. Also, later this year countries that have 
been certified will undergo review to determine whether their measures 
are comparable in effectiveness to new U.S. measures that provide 
increased protection for sea turtles.
    The United States, through the Department of State and with help 
from NOAA, is continuing to take a lead role in the two international 
sea turtle conservation agreements--the Inter-American Sea Turtle 
Convention and the Indian Ocean and Southeast Asia Sea Turtle MOU.
    With respect to sea turtle bycatch in longline fisheries, the 
Department of State and NOAA Fisheries have made a concerted effort to 
educate and build the awareness of both foreign governments and fishing 
industries of the on-going efforts to address this issue within the 
United States. We have also stressed the need for their active 
engagement as part of an effective strategy for the conservation of sea 
turtles. In this regard, the Administration's efforts to address this 
pressing problem have focused on the following key areas:
    1)  Obtaining additional data on the level of sea turtle 
interaction with longline fisheries including distribution by time, 
depth and area;
    2)  Research into new fishing gear and techniques to reduce sea 
turtle bycatch, including gear modifications, alternative baits, and 
alternative fishing strategies;
    3)  Identification of interim measures for adoption at the 
international level to reduce sea turtle bycatch, while efforts 
continue to further identify and refine possible solutions through 
numbers 1 and 2, above; and
    4)  Providing technical assistance and outreach to foreign nations 
to document sea turtle interactions in longline fisheries, conduct gear 
modification experiments to reduce sea turtle bycatch, and implement 
safe-handling practices to reduce sea turtle injury and mortality.
    As part of these efforts, the Department of State and NOAA 
Fisheries have worked to engage a number of countries with longline 
vessels operating under their jurisdiction, especially the distant-
water fishing nations, recognizing that the participation of these 
foreign fishing fleets is critical to the success of an effective sea 
turtle conservation strategy. The Department has also participated 
alongside NOAA Fisheries in a number of successful international 
conferences and meetings to advance the U.S. strategy, including the 
Second International Fishers Forum In November 2002, (IFF2), the NOAA 
Technical Workshop bycatch of sea turtles in longline fisheries in 
February 2003, the Bellagio Conference in November 2003, and the 
bycatch working group of the Inter-American Tropical Tuna Commission in 
January 2004,
    In 2003, the United States worked successfully with Japan and 
others for a decision by the FAO to convene a Technical Consultation on 
the issue of sea turtle interactions with fishing gear. The Technical 
Consultation, scheduled for late 2004, will be the first global meeting 
to address this issue. The Technical Consultation will review the 
status of the sea turtle species that are of concern and the overall 
impact fisheries have on their populations; consider the initiation or 
improvement of data collection on fisheries effort and turtle 
distribution to develop effective conservation and management measures; 
explore ways to engage fishing industries in developing solutions to 
the problem; promote research on and implementation of gear 
modifications and fishing practices that will reduce sea turtle 
bycatch; discuss and consider other measures that could be adopted to 
immediately reduce the impact of fisheries on sea turtle populations; 
and promote involvement of regional fisheries management organizations 
in identifying solutions and implementing measures to reduce sea turtle 
bycatch.
    The United States will continue to work with other countries to 
implement the results and recommendations of the FAO Technical 
Consultation on sea turtle-fishery interactions, including within 
fisheries management organizations such as IATTC, ICCAT and the nascent 
Western and Central Pacific Fishery Commission. The United States will 
also work to fulfill the call to action developed at the Bellagio 
Conference to strengthen coordination between the regional fisheries 
organizations and the sea turtle conservation arrangements.
Funding for International Fisheries Commissions
    As noted above, the United States advances its agenda on 
international fisheries issues principally through a variety of 
international fora, primarily a series of international fisheries 
commissions such as the Pacific Salmon Commission, ICCAT, IATTC and 
others. Virtually all of these bodies have schemes for mandatory 
contributions by their members for the sharing of annual budgets. U.S. 
dues and related expenses for the international fisheries commissions 
have, in recent years, amounted to approximately $20 million USD 
annually, of which about 60 percent represents U.S. contributions to 
the Great Lakes Fishery Commission.
    In FY 2003, Congress provided only about $17 million for these 
purposes, and allocated no funding for the Pacific Salmon Commission 
that year (the costs of which typically amount to $2.25 million 
annually). By reprogramming funds, the Administration was able to pay 
enough to most commissions to allow essential work to proceed. However, 
the United States remains in arrears in our contributions to several 
commissions, despite an increase in funding in FY 2004. For FY 2004, we 
will soon propose to reprogram slightly more than 5 percent of the 
funds within this appropriation, again with the view to allow all 
essential functions to continue. We hope that Congress will meet the 
President's request for FY 2005 for funding of these vital commissions.
    On a related note, we also wish to call the Subcommittee's 
attention the commitments made in the Yukon River Salmon Agreement that 
may require increased funding in the Interior Department budget.
IATTC Treaty Amendments
    Last year, with invaluable assistance from NOAA Fisheries, the 
Department of State led the negotiation of the revision of the 
Convention establishing the Inter-American Tropical Tuna Commission. 
The revised convention incorporates many of the elements of the 1995 
U.N. Fish Stocks Agreement including coverage of virtually all highly 
migratory fish species in the Convention Area, a precautionary approach 
to conservation and management of the species covered, provisions for 
conservation measures for non-fish species affected by fishing 
operations for tunas, enhanced provisions for monitoring, surveillance 
and enforcement, and other measures. The Administration will soon be 
sending the new agreement, called the Antigua Convention, to the Senate 
for advice and consent, and Congress will likely be asked to consider 
enacting revisions to the Tuna Convention Act for purposes of 
implementing legislation.
Conclusion
    Mr. Chairman, thank you very much for this opportunity to testify 
before this Subcommittee. I would be happy to answer any questions the 
Subcommittee may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Balton.
    Do we have a copy of that report that you just showed us?
    Mr. Balton. I would be happy to submit it to you.
    Mr. Gilchrest. Thank you.
    Mr. Balton. It's ``hot off the press.''
    Mr. Gilchrest. OK.
    [NOTE; The report entitled ``National Plan of Action of the 
United States of America to Prevent, Deter, and Eliminate 
Illegal, Unregulated, and Unreported Fisheries'' has been 
retained in the Committee's official files.]
    Mr. Gilchrest. Dr. Hogarth. Welcome, sir.

 STATEMENT OF WILLIAM T. HOGARTH, ASSISTANT ADMINISTRATOR FOR 
FISHERIES, NATIONAL MARINE FISHERIES SERVICE, NATIONAL OCEANIC 
                 AND ATMOSPHERIC ADMINISTRATION

    Dr. Hogarth. Thank you, Mr. Chairman, and members of the 
Subcommittee. I appreciate the invitation to testify on topics 
related to international fishery conservation and management. I 
am Bill Hogarth, the Assistant Administrator for NOAA's 
National Marine Fisheries Service.
    Mr. Chairman, I would also like to take this opportunity to 
thank you for the time you spent with the regional fishery 
management councils. It was great to have your presence in the 
discussions.
    Mr. Gilchrest. Thank you very much, Dr. Hogarth. I think it 
was a very productive time and a great exchange of information.
    Dr. Hogarth. Thanks.
    NOAA's Fisheries Service and our Federal partners at the 
Department of Interior and the Department of State, working the 
regional fishery management councils, NGO's and state, tribal 
and other Native American groups, have and are continuing to 
accomplish an impressive program of international living marine 
resource conservation and management.
    I have submitted a written statement for the record and 
with your permission I would like to take this opportunity to 
highlight a few points from this testimony.
    First I would like to talk about ICCAT, the International 
Commission for the Conservation of Atlantic Tunas. For the 
first time, the United States is hosting ICCAT in November of 
2004 in the United States. We will use this opportunity to 
demonstrate our continued commitment to the conservation and 
management of ICCAT-managed species and to showcase important 
commercial and recreational fisheries.
    One priority for the United States is the upcoming 
intersessional meeting of a working group tasked with 
developing integrated and coordinated Atlantic bluefin tuna 
management measures for both the east and west stocks. This has 
been requested by the United States and this will be the first 
time that the working group considers and, we hope, develops 
management alternatives that take into account the biological 
reality that these two stocks overlap.
    Another issue of interest for the United States will be the 
implementation of a new ICCAT trade restrictive measure regime. 
Following years of work, ICCAT took a historic step to 
strengthen and broaden its regime for imposing trade 
restrictive measures and adopted a comprehensive trade 
resolution at its 2003 meeting. This annual meeting in 2004 
will be the first time the new trade regime will be applied.
    The other convention which I would like to talk about 
briefly is the one that Mr. Balton just mentioned, the 
Convention on the Conservation and Management of Highly 
Migratory Fish Stocks in the Western and Central Pacific. 
That's a long title for this group. But this is an important 
new commission to conserve and manage tuna and tuna-like 
species in the western and central Pacific.
    This is a resource estimated to be worth at least $1.5-2 
billion. The Pacific island states control access to the 
fishing grounds within their exclusive economic zones. In most 
cases, these fish stocks are the only significant renewable 
natural resource they have and is key to their economic 
development. This new commission will strive to apply the same 
requirements to all distant water and coastal states in the 
region. The commission will have ample authority to take 
binding measures to address critical issues such as bycatch and 
fishing capacity.
    The next treaty I would like to talk about is the 
International Whaling Commission. The 56th annual meeting of 
the International Whaling Commission, or IWC, will be held this 
July in Sorrento, Italy. The longstanding principles that will 
guide the United States policy at this meeting are that the 
U.S. supports the IWC's commercial whaling moratorium, support 
for aboriginal subsistence whaling, and the U.S. opposition to 
lethal research whaling and to the international trade of whale 
products.
    However, the United States continues to work in good faith 
to establish as Revised Management Scheme for commercial 
whaling. The Chairman of the IWC created in June of 2003 a 
small working group of countries interested in making progress 
on the RMS. As a result, significant progress has been made in 
addressing some of the critical unresolved issues. Much of this 
progress has come from compromise proposals that have been put 
forward by the United States. While several issues remain, 
particularly the cost sharing aspects, significant progress is 
being made toward the completion of an RMS.
    FAO is another one I would like to talk about for a minute. 
We have supported the FAO in developing an international plan 
of action for the management of fishing capacity, and has 
conducted qualitative and quantitative measures of fishing 
capacity levels in both domestic and international fisheries. 
The U.S. national plan of action for the management of fishing 
capacity is nearing completion.
    Another important issue is the illegal, unreported and 
unregulated fisheries. NOAA's Office for Law Enforcement and 
General Counsel for Enforcement and Litigation has played a 
critical leadership role in the development and growth of the 
International Monitoring, Control and Surveillance Network, or 
MCS Network. The MCS Network has realized many of the desired 
goals by expanding cooperation to combat IUU fishing with 
members from all regions of the globe. A global enforcement 
conference later this year will be cosponsored by the MCS 
Network.
    I will not spend any time on CITES because CITES is headed 
by the Department of Interior and I know Dr. Stansell has 
extensive comments in his testimony. However, we believe that 
CITES does and can serve as a useful adjunct to the traditional 
fishery management through its comprehensive permitting and 
trade control protocols.
    I want to talk a minute about sea turtle bycatch. Sea 
turtles have been a major issue for many of our fisheries and 
we are, in most instances, a small part of the impact of 
turtles worldwide.
    Recently we have had a lot of effort to address sea turtle 
bycatch internationally, to include both scientific research, 
cooperative work within regional fisheries management councils, 
working with the NGO's, hosting and participating in 
international workshops, and assuming a leadership role in 
preparations for the November, 2004 FAO Technical Consultation 
on Sea Turtles.
    Also, NOAA Fisheries has designed new technologies to 
improve survival rates for turtles caught in long line gear, 
which we are now exporting to countries such as Japan, 
Guatemala, and Australia.
    Mr. Chairman, this concludes my testimony. However, I would 
be happy to answer any questions that you or any members of the 
Subcommittee may have.
    Thank you.
    [The prepared statement of Dr. Hogarth follows:]

  Statement of William T. Hogarth, Ph.D., Assistant Administrator for 
  Fisheries, National Marine Fisheries Service, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify on topics related to international fishery 
conservation and management. I am William T. Hogarth, the Assistant 
Administrator for Fisheries in the National Oceanic and Atmospheric 
Administration (NOAA), Department of Commerce.
    NOAA's National Marine Fisheries Service (NOAA Fisheries) and our 
federal partners at the Department of the Interior and the Department 
of State, working with Regional Fishery Management Councils and state, 
tribal, and other Native American groups, are continuing to accomplish 
an impressive program of international living marine resource 
conservation and management.
    I know just how important our international fisheries relationships 
are from personal experience in the International Commission for the 
Conservation of Atlantic Tunas (ICCAT), the Inter-American Tropical 
Tuna Commission (IATTC), the negotiations that produced the Convention 
on the Conservation and Management of Highly Migratory Fish Stocks in 
the Western and Central Pacific Ocean (WCPFC), and many other fora. In 
fact, many of our domestic fisheries objectives can only be achieved 
with consistent action by the international community. These objectives 
relate to the management of highly migratory, salmonid, straddling, and 
many protected species populations. Our management goals include 
eliminating over-fishing; rebuilding over-fished stocks; maintaining 
sustainable fisheries; recovering protected species; conserving 
habitats; improving the scientific basis of living marine resource 
management; and managing harvesting capacity. We need the active 
participation of our international partners.
    My testimony will focus on the issues you requested in the letter 
of invitation. I will present an overview of our efforts to address 
these issues in several international fora including (1) ICCAT, (2) 
WCPFC, (3) Food and Agriculture Organization of the United Nations 
Committee on Fisheries (FAO COFI), (4) International Whaling Commission 
(IWC), and (5) Convention on International Trade in Endangered Species 
of Wild Fauna and Flora (CITES). I will conclude with my views on how 
NOAA Fisheries and the Congress may further enhance our respective 
cooperative efforts to achieve our international objective.
ICCAT (International Commission for the Conservation of Atlantic Tunas)
    The United States, for the first time, is hosting the 2004 annual 
meeting of ICCAT in November in New Orleans. We will take this occasion 
to demonstrate our continued commitment to the conservation and 
management of ICCAT managed species and to showcase our important 
commercial and recreational fisheries. Meanwhile, we are in the early 
stages of preparing for the annual meeting and are reviewing our 
internal process and programmatic structure to identify whether 
improvements need to be made.
    We will also discuss and identify other key issues facing ICCAT 
this year. One priority issue for the United States is the upcoming 
Intersessional meeting of a working group tasked with developing 
integrated and coordinated Atlantic bluefin tuna management measures 
for both east and west stocks. This will be the first time that the 
working group considers and develops management alternatives that take 
into account the biological reality that the east and west bluefin tuna 
stocks overlap. We expect this to be an ongoing process. The working 
group will review the most recent scientific data on Atlantic bluefin 
tuna stock structure and biology, and identify and evaluate various 
management options. The working group will also likely identify 
research needed to provide scientific advice on the risks and 
robustness of potential revised management procedures for bluefin tuna. 
While there are additional costs involved in establishing such a 
research program, it is the next logical step for the ICCAT bluefin 
tuna science and management program.
    Another issue of interest for the United States at the fall meeting 
will be the implementation of a new ICCAT trade restrictive measure 
regime. Following years of work, ICCAT took a historic step to 
strengthen and broaden its regime for imposing trade restrictive 
measures and adopted a comprehensive trade resolution at its 2003 
meeting. This new trade regime applies equally to all fisheries and to 
both ICCAT members and non-members and establishes a more transparent 
process for the application of trade restrictive measures. The trade 
regime uses comparable standards for evaluating fishery related 
activities for members and non-members. Also, it allows for the swift 
re-imposition of trade sanctions in cases where parties recently 
released from sanctions act in bad faith by engaging in problem fishing 
activities. The 2004 annual meeting will be the first time this new 
trade regime will be applied. This summer the United States will begin 
to review data and consider trade measures taken under the previous 
instruments as well as the possibility of new applications under the 
broadened regime.
    Over the next few months we will continue our programmatic review 
relative to ICCAT preparations. We are looking at identifying 
opportunities to improve our relationship with other ICCAT parties, 
through partnerships and capacity building efforts. At this time, I do 
not see a need for legislative action with regard to our ICCAT 
activities.
WCPFC (Convention on the Conservation and Management of Highly 
        Migratory Fish Stocks in the Western and Central Pacific Ocean)
    WCPFC was adopted on September 4, 2000, following seven negotiating 
sessions spanning five years. The Convention was adopted by 19 states 
voting in favor <SUP>0</SUP>; Japan and Korea voting against; and 
China, France, and Tonga abstaining. The differences that concerned 
those states that abstained or voted against have been substantially 
resolved.
---------------------------------------------------------------------------
    \0\ 1 Australia, Canada, Cook Islands, Federated States of 
Micronesia, Fiji, Indonesia, Kiribati, Marshall Islands, Nauru, New 
Zealand, Niue, Palau, Papua New Guinea, Philippines, Samoa, Solomon 
Islands, Tuvalu, United States, and Vanuatu.
---------------------------------------------------------------------------
    By December 19, 2003, thirteen states had ratified the Convention, 
triggering the entry into force of the Convention on June 19, 2004. The 
thirteen states are: Australia, Cook Islands, Federated States of 
Micronesia, Fiji Islands, Kiribati, Marshall Islands, Nauru, New 
Zealand, Niue, Papua New Guinea, Samoa, Solomon Islands, and Tonga. The 
Department of State is preparing the package for the President to 
transmit the Convention to the Senate for advice and consent to 
ratification. NOAA Fisheries is developing legislative language for 
implementation of the Convention.
    The Convention establishes a Commission to conserve and manage tuna 
and tuna-like species in the western and central Pacific west of 150+ 
meridian of west longitude, a resource estimated to have annual 
revenues of $1.5-2 billion. The Pacific island states control access to 
the fishing grounds within their exclusive economic zones where the 
majority of the catches occur. For many of the Pacific Island nations, 
these fish stocks are the only significant renewable natural resource, 
and a key to their economic development aspirations. The United States 
has been cooperating with these nations since 1988 under the South 
Pacific Tuna Treaty. The new Convention will serve to apply the same 
requirements our fishermen have been following to all distant water and 
coastal states in the region. These include carrying observers, a 
vessel monitoring system, restrictions on transshipment, and catch and 
fishing effort reporting. The new Convention is fully consistent with 
the 1995 United Nations Fish Stocks Agreement and other recent global 
fisheries agreements, and the Commission will have ample authority to 
take binding measures to address issues such as bycatch and fishing 
capacity. Several non-binding resolutions have been adopted by the 
parties to the negotiation to arrest the growth of fishing capacity in 
the western and central Pacific, but they have not been fully 
effective. The coming into force of a major new convention such as this 
one will create major additional implementation responsibilities for 
NOAA Fisheries, and we are currently preparing to meet these 
responsibilities.
    Since the adoption of the Convention, a Preparatory Conference has 
met five times to design the internal rules and procedures for adoption 
by the eventual Commission. A sixth session just met in Bali, Indonesia 
in April 2004, and a brief final session will likely meet immediately 
prior to the inaugural meeting of the Commission in late 2004. Working 
groups have been convened to develop administrative and procedural 
matters, provide scientific advice both before and after entry into 
force of the Convention, and discuss monitoring-control-surveillance. 
Matters relevant to the Convention, the Commission, and the activities 
of the Preparatory Conference can be found at http://www.ocean-
affairs.com.
FAO COFI (Food and Agriculture Organization of the United Nations 
        Committee on Fisheries)
Fishing Capacity in the United Nations' Food and Agricultural 
        Organization
    The United States is well aware that overcapacity in domestic and 
world fisheries is a serious problem and has developed definitions and 
measures of regional and international fish harvesting capacity. The 
United States supported the U.N. Food and Agricultural Organization in 
developing an international plan of action (IPOA) for the management of 
fishing capacity, two technical consultations, and a technical working 
group on defining and measuring capacity, and has conducted qualitative 
and quantitative measures of excess and overcapacity levels in domestic 
and international fisheries. To update the Committee on our progress in 
dealing with this issue, I would like to stress three points.
    First, the U.S. national plan of action for the management of 
fishing capacity, a commitment of the IPOA, is nearing completion. With 
this U.S. plan of action, we want to establish an effective capacity 
monitoring program that responds to the unique features of our domestic 
fisheries and management institutions.
    Second, in the Administration's proposals to re-authorize the 
Magnuson-Stevens Fishery Conservation and Management Act, amendments 
that address overcapacity (standards for new individual fishing quotas) 
and excess capacity (streamlined procedures for fishing capacity 
reduction programs) have been submitted to Congress.
    Third, a report on excess capacity levels is nearing completion for 
use in developing buyback programs. A planned overcapacity report will 
provide valuable information to the Councils to address over-fishing. 
These reports will serve as a model to FAO on how to properly assess 
capacity management problems.
Illegal, Unregulated and Unreported Fishing
    NOAA continues to play a central role along with the State 
Department in the creation and implementation of the National Plan of 
Action to prevent, deter and eliminate illegal, unregulated and 
unreported (IUU) fishing. The heart of this action plan calls for 
strengthening enforcement, the primary function of NOAA's prosecutors 
and special agents.
    NOAA's Office for Law Enforcement (OLE) and General Counsel for 
Enforcement and Litigation have played critical leadership roles in the 
development and growth of the International Monitoring, Control and 
Surveillance Network (MCS Network). Now in its third year, the MCS 
Network has created an active forum for marine law enforcement 
personnel worldwide to cooperate by sharing experiences and 
information. The MCS Network has realized many of the desired goals of 
the IPOA by expanding cooperation to combat IUU fishing with members 
from all continents and regions of the globe. A global enforcement 
conference later this year will be co-sponsored by the MCS Network. 
Recruitment of additional members is actively promoted and membership 
now stands at approximately 40 countries. The chair of the Network (who 
is from NOAA) briefed staff from the House Oceans Caucus on the Network 
last fall.
    The NOAA OLE has dedicated a significant level of the Office's 
resources toward the elimination of IUU fishing. International case 
investigations have continued to expand to the point that there are 
productive and active international investigations in each of the six 
OLE field divisions. Cases have involved species that are illegally 
caught, processed and shipped internationally. These species include 
Patagonian toothfish; Honduran lobster; Nicaraguan lobster; Russian 
crab; Canadian fish stocks; highly migratory species such as tuna, 
shark and billfish; salmon and many other species, some of which fall 
within CITES listings.
    Our enforcement personnel are directly and actively engaged in many 
international marine resource related venues for the purpose of 
monitoring enforcement issues, providing advice and informing 
participants on the enforcement related aspects of decisional 
processes, negotiations, and decisions. The OLE participates in dozens 
of venues including, but not limited to, fisheries bilateral meetings, 
bilateral enforcement meetings, treaty negotiations, convention, and 
other fora wherein the United States has responsibility for IUU related 
matters. Examples of these venues include meetings of the FAO Committee 
on Fisheries, CCAMLR (Commission for the Conservation of Antarctic 
Marine Living Resources), ICCAT, the Western and Central Pacific Tuna 
Treaty, North Atlantic Fishery Organization, and the Southern Pacific 
Tuna Treaty.
Eco-Labeling
    Discussion of eco-labels has taken place at the FAO COFI or at the 
FAO Subcommittee on Fish Trade since the late 1990s. FAO Members agreed 
at the last biennial meeting of COFI (February 2003) that an expert 
consultation should be convened to develop voluntary international 
guidelines for eco-labeling of fish and fisheries products from marine 
capture fisheries. The expert consultation took place in October 2003. 
FAO was instructed by COFI to submit the Report of the Expert 
Consultation to the 9th meeting of the Subcommittee on Fish Trade 
(February 2004) in order for it to make a decision on possible follow-
up actions, such as the FAO convening a technical consultation, which 
would bring together FAO member states. At that meeting, the United 
States joined others in calling on the FAO to convene a meeting in 
October 2004 in an effort to conclude FAO work on eco-labels.
IWC (International Whaling Commission)
    The 56th Annual Meeting of the International Whaling Commission 
(IWC) will be held in Sorrento, Italy, July 19th through July 22nd. The 
longstanding principles that will guide United States policy at this 
meeting are that the United States supports the IWC's commercial 
whaling moratorium, supports aboriginal subsistence whaling, opposes 
lethal research whaling, and opposes the international trade of whale 
products.
    The United States continues to work in good faith to establish a 
Revised Management Scheme (RMS) for commercial whaling. At the 55th 
Annual Meeting in June 2003, little progress was made towards 
completion of this agreement. However, the Chairman of the IWC proposed 
creating a small working group of countries interested in making 
progress on the RMS. The United States, Denmark, Iceland, Japan, The 
Netherlands, Spain, and Sweden were invited to participate, and this 
``Friends of the Chair'' group met in December and March. Significant 
progress was made in addressing some of the critical unresolved issues, 
most importantly observation and inspection and catch documentation 
provisions. Much of this progress came from compromise proposals put 
forward by the United States. Previously, pro-whaling nations had been 
unwilling to agree to the incorporation of adequate monitoring measures 
into the RMS. While several issues remain, particularly cost sharing, 
significant progress is being made toward the completion of an RMS. 
This small group will meet again during the next IWC meeting and then 
report to a special Commissioners-only meeting on the RMS. The United 
States does not anticipate that any RMS language will be put forth for 
a vote at this year's meeting.
    Iceland recently rejoined the IWC with a reservation to the 
commercial whaling moratorium. In the spring of 2003, Iceland put forth 
a proposal to conduct lethal research on whales. The United States 
opposes lethal research and urged Iceland not to begin this program, 
joining an IWC resolution calling on them not to commence such a 
program and joining a joint demarche to Iceland expressing our 
opposition to lethal research on whales. Further, a majority of IWC 
Scientific Committee members criticized Iceland's proposal as not being 
necessary for the management of whale stocks. Despite these actions, 
Iceland went forward with their lethal research program and harvested 
36 Minke whales. The United States continues to examine Iceland's 
action to determine the applicability of certifying Iceland under the 
Pelly Amendment to the Fisherman's Protective Act of 1967 (22 U.S.C. 
Sec. 1978).
    Likewise, Japan continues to conduct lethal research with the take 
of up to 700 whales per year, and Norway continues to harvest 
approximately 700 Minke whales a year in their commercial harvest. The 
United States continues to urge Japan to cease the killing of whales 
under scientific permits and for Norway to halt commercial whaling.
    The United States recently participated in a four-nation delegation 
to Japan to discuss the operation of the Conservation Committee. The 
U.S. supported the creation of this committee at last year's annual 
meeting as a way to improve the governance of the Commission's 
conservation work. Japan and other countries strongly opposed this 
measure. The United States, Australia, Sweden, and the United Kingdom 
made this effort to explain to Japan reasons for supporting the 
committee and to encourage their participation.
    NOAA, in cooperation with the Alaska Eskimo Whaling Commission 
(AEWC), has put significant effort into preparations for the in-depth 
review of bowhead whales, which will be conducted at this year's 
meeting of the IWC Scientific Committee. The United States is pleased 
that the bowhead stock population now exceeds 10,000 animals, and is 
increasing at an annual rate of 3.4% while the aboriginal subsistence 
harvest is being conducted.
CITES (Convention on International Trade in Endangered Species of Wild 
        Fauna and Flora)
    The United States continues to believe that CITES can serve as a 
useful adjunct to traditional fisheries management through its 
comprehensive permitting and trade control protocols. Such systems can 
deter IUU fishing and assist in promoting sustainable domestic 
management programs for commercially exploited marine fish species.
    In instances where no regional fishery management organization is 
in place, as is the case with queen conch (Strombus gigas), a CITES 
listing can encourage the establishment of regional management 
mechanisms. A recent CITES review of significant trade in queen conch, 
after consultation with exporting and importing countries, recommended, 
among other things, that countries in the Wider Caribbean collaborate 
to form a regional governance regime for this species. At its most 
recent meeting in St. Georges, Grenada (October 21-24, 2003), the 
Western Central Atlantic Fishery Commission recommended the 
establishment of an intersessional working group to study how 
strengthened regional management cooperation could be achieved. This 
recommendation was endorsed by the participants at the recent White 
Water to Blue Water Partnership Initiative, convened in Miami, Florida.
    The deadline for submission of species listings, resolutions, and 
decisions for consideration at the 13th Meeting of the Conference of 
the Parties to CITES (COP13), to be held October 2-14, 2004 in Bangkok, 
Thailand, is May 5. The United States Fish and Wildlife Service (FWS) 
of the Department of the Interior is responsible for the implementation 
and enforcement of CITES, and the United States Department of 
Agriculture, Animal and Plant Health Inspection Service is responsible 
for enforcement of CITES for plants. However, several highly visible 
marine species listed in either Appendix I or II of CITES are within 
the domestic jurisdiction of NOAA, in the Department of Commerce. These 
include the great whales, dolphins, queen conch, hard corals, giant 
clams, seahorses, and five species of seals. In addition, all marine 
turtles, whose protection under the Endangered Species Act is shared by 
the two agencies, are listed in Appendix I of CITES. In NOAA, 
responsibility for protection of these marine species has been 
delegated to NOAA Fisheries. NOAA Fisheries forms a Task Force composed 
of experts from our headquarters and regional offices and science 
centers to consider U.S. decisions in preparation for meetings of the 
CITES Conference of the Parties concerning marine species for which 
NOAA Fisheries has responsibility. The Task Force makes recommendations 
to FWS.
    Humphead wrasse (Cheilinus undulatus), a large, long-lived, and 
late-maturing species, which occurs in the Indo-Pacific and is taken in 
the live reef food fish trade, is the only marine species that the 
United States is likely to propose for consideration at COP13. However, 
the United States is also likely to propose a discussion document with 
draft resolutions defining the phrase, ``marine environment not under 
the jurisdiction of any State,'' within the broader term, 
``introduction from the sea,'' used in the CITES treaty.
    We believe that this resolution will clarify permitting 
requirements to ensure that CITES trade tracking provisions are not 
unduly burdensome to fishers. In addition, the United States is likely 
to submit a discussion paper which summarizes the February 3-5, 2004, 
international workshop on seahorse fishery management, funded by the 
United States and hosted by the Government of Mexico, to provide 
assistance to countries that export and import these species to ensure 
sustainable trade.
Sea Turtle Bycatch
    NOAA Fisheries' recent efforts to address sea turtle bycatch 
internationally include scientific research, cooperative work within 
regional fisheries management and other fora, hosting and participating 
in international workshops, and assuming a leadership role in 
preparations for the November 2004 FAO Technical Consultation on Sea 
Turtles.
    From 2000-2003, scientific research was conducted in partnership 
with academic and U.S. fishing industry representatives. This research 
demonstrated that large circle hooks used in combination with specific 
bait types would reduce sea turtle bycatch take in shallow-set longline 
fisheries. Further studies are planned to determine the effect of these 
modifications on target catch rates for swordfish and tuna and to 
refine results to achieve bycatch reduction. Additionally, NOAA 
Fisheries, in partnership with U.S. industry, has developed a number of 
tools (such as de-hooking devices, line cutters, and dip nets) designed 
to improve post-release survival rates for turtles caught or entangled 
in pelagic longline gear. NOAA Fisheries is currently working to 
communicate these important scientific developments broadly through its 
International Bycatch Task Force and representatives to appropriate 
international fora. Such efforts include on-going and proposed future 
technology transfer and gear experimentation with countries such as: 
Australia, Brazil, Costa Rica, Chile, Ecuador, Guatemala, Israel, 
Japan, Korea, Marshall Islands, Mexico, Federated States of Micronesia, 
Papua New Guinea, Uruguay, and others.
    NOAA Fisheries is also engaged in cooperative work on sea turtle 
bycatch issues in regional fisheries management (and other) fora. 
United States-sponsored or co-sponsored resolutions on sea turtle 
bycatch were recently adopted by the Bycatch Working Group of IATTC and 
by ICCAT. Additionally, NOAA Fisheries personnel will participate this 
year in the Interim Scientific Committee (ISC) for the Highly Migratory 
Species of the North Pacific Ocean, which has created a bycatch working 
group focusing particularly on sea turtle, shark and sea bird bycatch 
issues. The ISC will likely provide scientific and management advice to 
the WCPFC and may also provide advice to the IATTC. Finally, NOAA 
Fisheries has been actively involved in the development and 
implementation of the Inter-American Convention for the Protection and 
Conservation of Sea Turtles (currently the only international treaty 
devoted exclusively to sea turtles) and the Indian Ocean--South East 
Asian Marine Turtle Memorandum of Understanding.
    In March 2003, the United States hosted an interdisciplinary, 
technical expert workshop on bycatch of sea turtles in longline 
fisheries. Academic, technical, and scientific experts from nineteen 
countries and four inter-governmental organizations (including the FAO 
and IATTC) met to evaluate existing information on turtle bycatch in 
longline fisheries, facilitate and standardize data collection from 
longline fisheries likely to interact with sea turtles, exchange 
information on experimentation with longline gear relative to turtles 
and target species, identify and consider solutions to reduce turtle 
bycatch in longline fisheries, and exchange information and gain a 
comprehensive understanding of the fishing methodologies and operations 
of global longline fleets. NOAA Fisheries representatives also took 
part in a November 2003 conference of international multidisciplinary 
experts in Italy that drafted a blueprint for action to conserve and 
recover Pacific sea turtles.
    NOAA Fisheries wants all of the above efforts to produce positive 
results at the November 2004 FAO COFI Technical Consultation on Sea 
Turtles. These consultations will review the status of sea turtle 
species and the overall impact fisheries have on their populations, 
review where data collection can be initiated or improved, engage the 
fishing industries in developing and implementing solutions to reduce 
sea turtle bycatch, and promote involvement of regional fisheries 
management organizations in identifying solutions and implementing 
measures to reduce sea turtle bycatch. NOAA Fisheries representatives 
have taken an active role in U.S. efforts to work in partnership with 
Japan to develop the agenda and basic document for this meeting. The 
primary United States goals for this meeting are to 1) promote the use 
of large circle hooks proven effective in reducing sea turtle bycatch 
interactions in shallow-set longline fisheries, and 2) seek 
standardized data collection and implementation of sea turtle bycatch 
observer programs in fisheries that pose high levels of threat to sea 
turtle recovery (e.g., trawl, gillnet, and longline fisheries).
Enhancing Cooperation to Achieve International Goals
    In my introductory remarks, I promised to address how NOAA 
Fisheries could further enhance our respective cooperative efforts to 
achieve fisheries, protected species, and habitat goals. NOAA Fisheries 
is reviewing whether the present decentralized internal organization 
for conducting international activities is optimal and if improvements 
should be made. In the meantime, we are reviewing the processes for 
soliciting views from the public, supporting committees, and preparing 
for meetings of ICCAT and the other Regional Fishery Management 
Organizations (RFMOs) to ensure that we are as efficient and effective 
as possible.
    This concludes my testimony. I would be pleased to answer any 
questions.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Hogarth.
    Dr. Stansell.

     STATEMENT OF KENNETH B. STANSELL, ASSISTANT DIRECTOR, 
    INTERNATIONAL AFFAIRS, FISH AND WILDLIFE SERVICE, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Dr. Stansell. Good morning, Mr. Chairman, and members of 
the Subcommittee. I appreciate the opportunity to appear before 
you today to provide testimony on two key components of the 
U.S. Fish and Wildlife Service's international wildlife 
conservation programs.
    I have a written statement and would ask that it be 
included for the record.
    The Service has a long history of proactive programs for 
international species conservation. A vital component of all of 
our efforts involve partnerships with a broad cadre of 
agencies, foreign governments, local communities, and non-
governmental organizations.
    My testimony today will focus on two program areas that are 
particularly timely for this hearing: the regulation of 
international wildlife trade through the CITES convention, and 
our grants programs that provide on-the-ground wildlife 
conservation support to developing countries.
    The Service is preparing for the 13th meeting of the 
conference of the parties to CITES, which will be held in 
Bangkok, Thailand in October of this year. This is an opportune 
time to update the Subcommittee on the status of those efforts.
    Additionally, this Subcommittee is currently considering 
legislation for additional species under the Multinational 
Species Conservation Fund. We would like to report on the 
important progress that has been made under the existing 
programs.
    Relative to polar bears, we have previously testified in 
support of the U.S./Russia polar bear agreement. I am pleased 
to report to the Subcommittee that we anticipate and we will be 
transmitting the implementing legislation to that agreement 
soon. We look forward to briefing the Subcommittee and the 
Alaska delegation further on the details of the implementing 
legislation, and working closely with the Committee as it moves 
forward.
    The CITES treaty recently celebrated its 30th anniversary. 
It is the only international treaty designed specifically to 
monitor and regulate international trade in wildlife species. 
Participation in the convention has now grown to 165 parties. 
As a founding party, and one of the world's largest importers 
of wildlife, the United States continues to provide a 
leadership role in the convention, both as chair of the 
standing committee which guides the convention's day-to-day 
operations, and through active participation at meetings of the 
conference of the parties. The Service is completing its 
consultations and will formally transmit its final proposals 
for the meeting by May 5th of this year.
    At that time, we will also begin working on draft 
negotiating positions for species proposals and other agenda 
items that have been submitted by other parties. Although final 
decisions have yet to be made, we anticipate moving forward 
with a number of proposals as outline in our latest Federal 
Register notice. For domestic species, these would include the 
listing of the humphead wrasse in Appendix II, the downlisting 
of the bald eagle to Appendix II, the listing of the painted 
bunting in Appendix II, and we are also working with our 
colleagues in range countries to cosponsor several proposals 
for foreign species such as Asian fresh-water turtles.
    We anticipate that other parties will again submit 
proposals for a number of more controversial species, including 
whales and African elephants. We will be working throughout the 
summer to coordinate our negotiating position for other party 
proposals as they are known.
    Moving quickly to our grants program, the Service currently 
administers species programs for African elephants, Asian 
elephants, rhinos and tigers, great apes, and neo-tropical 
migratory birds. Collectively, these programs have funded over 
600 on-the-ground projects and leveraged over $100 million in 
matching support from partners throughout the world. We 
consider that an excellent return on investment, and a proven 
model for cooperative wildlife resource conservation.
    In order to be effective, however, the Service must work 
closely with foreign governments, local communities, the 
private sector, and local and international NGO's to identify 
and support high priority actions to protect and recover these 
species and their habitats.
    Our experience has shown that relatively modest sums, if 
judiciously applied to well-designed and implemented projects, 
can leverage not only considerable matching funds but we 
believe, as importantly, local community investment in the 
conservation of their species.
    Our multinational program is complemented by the Service's 
Wildlife Without Borders program. While the multinational 
program focuses on critical species, our Wildlife Without 
Borders program addresses broader needs that ultimately must be 
met for overall success in wildlife conservation. Our goal is 
to assist developing countries in building their capacity to 
develop locally adapted wildlife management programs to meet 
their challenges of on-the-ground wildlife conservation. These 
efforts include projects such as natural area management, staff 
training, education and outreach, and fostering local community 
involvement in wildlife conservation.
    Geographic Wildlife Without Borders initiatives currently 
are underway in five regions, from Latin America to China. We 
also focus on thematic initiatives under our Wildlife Without 
Borders program to address cross-cutting issues such as wetland 
conservation and a more recent issue of the bushmeat. These are 
not grant programs, per se, but they are programmatic efforts 
to develop a coordinated effort among many stakeholders.
    Working with our international partners, we see clear signs 
of the effectiveness of our combined efforts. These modest 
programs serve as a catalyst for cooperative efforts among 
various partners to work together for a common goal: the global 
conservation of wildlife. The success of these programs 
encourage optimism and help point the way to improved actions 
in a world of increasing threats to wildlife and their 
habitats.
    In closing, Mr. Chairman, I would like to thank you and the 
other Subcommittee members for your continuing support of the 
conservation of wildlife species throughout the world.
    I would be happy to respond to any questions you may have 
at this time.
    [The prepared statement of Dr. Stansell follows:]

  Statement of Kenneth B. Stansell, Assistant Director, International 
  Affairs, Fish and Wildlife Service, U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to provide testimony 
regarding the U.S. Fish and Wildlife Service's (Service) role in the 
international conservation of fish and wildlife species. The Service 
appreciates the continued interest and commitment by this Subcommittee 
to protect and conserve threatened and endangered species throughout 
the world.
    As members of the Subcommittee are aware, the Service has a long 
history of proactive programs addressing the international conservation 
of fish and wildlife species. The Service works with private citizens, 
local communities, state and federal agencies, foreign governments, and 
nongovernmental organizations, to promote a coordinated domestic and 
international strategy to protect, restore, and enhance the world's 
diverse wildlife and their habitats. My testimony today will highlight 
two key components of those programs: regulation of international 
wildlife trade through implementation of the Convention on 
International Trade of Endangered Species of Wild Fauna and Flora 
(CITES) and providing direct support to on-the-ground conservation 
programs in developing countries through a series of grant programs 
including the Multinational Species Conservation Fund and our Wildlife 
Without Borders Program.
CONVENTION ON INTERNATIONAL TRADE OF ENDANGERED SPECIES OF WILD FAUNA 
        AND FLORA (CITES)
    I appreciate the opportunity to update the Subcommittee on the U.S. 
preparations for the thirteenth meeting of the Conference of the 
Parties (COP13) to the Convention of International Trade in Endangered 
Species of Wild Fauna and Flora (CITES). COP13 will take place in 
Bangkok, Thailand from October 2-October 14 of this year.
    CITES, which celebrated its 30th anniversary in 2003, is the only 
international treaty designed specifically to control, monitor and 
regulate international trade in certain animal and plant species that 
are now or may be potentially threatened with extinction. CITES is one 
of the most effective forces in the world today for conservation of 
fauna and flora, both in halting the trade in species which are 
threatened with extinction and in fostering sustainable trade in other 
vulnerable species. CITES is a treaty that works and is gaining 
momentum as reflected by the continued expansion of this treaty's 
membership. Currently, 164 countries, including the United States, are 
Parties to CITES.
    As the Subcommittee is aware, the Convention established a formal 
process for considering changes to the species covered by the 
Convention through periodic meetings of the Parties. Any Party may 
submit proposed species changes and other agenda items for 
consideration at meetings of the COP through this process. In 
preparation for the upcoming COP13, the Service has coordinated with 
the Departments of Commerce, State and Agriculture; the U.S. Trade 
Representative (USTR) and state agencies. The Service has published a 
series of Federal Register notices, and held public meetings, in which 
we solicited comments regarding possible species proposals, 
resolutions, decisions, and agenda items that the United States should 
consider proposing at the next meeting. The public comment period on 
the latest Federal Register notice closed on March 12, 2004. That 
notice presented a summary of comments received and outlined proposals 
that were likely to be submitted.
    In considering U.S. proposals, the Service will prioritize 
submissions to maximize the Convention's effectiveness in the 
conservation and sustainable use of species subject to international 
trade. This includes proposed actions that specifically address:
    <bullet>  serious wildlife trade issues that the U.S. is 
experiencing as a range country for species in trade, or for those 
species not native to the U.S.;
    <bullet>  difficulties encountered by the U.S., or other Parties, 
in implementing or interpreting the Convention; and
    <bullet>  implementation of the Convention by increasing the 
information quality and expertise used to support decisions by the 
parties.
    The Service is currently completing its consultations and will 
formally transmit its final proposals to the CITES Secretariat by May 
5, 2004. At that time, we will also begin working on our draft 
negotiating positions for species and other agenda items proposed by 
other Parties. We anticipate publishing those draft positions in the 
Federal Register in July 2004, for public review and comment prior to 
the meeting.
    We anticipate that Assistant Secretary for Fish and Wildlife and 
Parks, Mr. Craig Manson will again head the delegation, which will be 
comprised of technical staff from the Department of the Interior, the 
Service, U.S. Agency for International Development (USAID), NOAA 
Fisheries, USDA Animal and Plant Inspection Service (APHIS), U.S. 
Forest Service, State Department, and USTR.
    Of the numerous issues to be addressed at COP13 below are several 
that we would like to highlight.
Whales
    We anticipate that there will be several proposals dealing with 
whales. This is a very contentious issue that has a long history within 
CITES. Proposals to downlist stocks of both Bryde's whales and Minke 
whales from Appendix I to II by Japan have been defeated at the last 
four CITES meetings. If adopted, these proposals would re-open 
international commercial trade in whale products, and could foster 
increased poaching of protected whale species. The United States 
continues to be strongly opposed to the downlisting of whale species in 
accordance with the commercial whaling moratorium of the International 
Whaling Commission (IWC). We believe that CITES should honor the 
request for assistance in enforcing the moratorium which was 
communicated by the IWC to CITES in 1978. We continue to participate in 
the IWC efforts to develop a Revised Management Scheme (RMS) that 
includes an effective inspection and observation scheme for use in the 
event that the moratorium on commercial whaling is lifted.
Elephants
    Trade in African elephant parts and products has been another 
contentious issue. In the spring of 1989, concern that African elephant 
populations were being devastated to supply a largely illegal ivory 
trade resulted in major importing countries, including the U.S. and the 
European Union, to declare a moratorium on ivory imports. At COP12, 
because of successful management strategies, Botswana, Namibia, and 
South Africa, were permitted to conduct a one-time sale of registered 
government stockpiles of ivory, no earlier than May 2004. This one-time 
sale is subject to certain additional specific conditions including an 
expanded and operational Monitoring of Illegal Killing of Elephants 
(MIKE) program, which is designed to provide a baseline of elephant 
populations and ongoing monitoring. The United States continues to work 
with other delegations to ensure that the conditions of any sale of 
ivory included effective safeguards to prevent adverse impacts on 
elephant populations in other countries
Humphead Wrasse
    The United States will likely submit a proposal to list humphead 
wrasse to Appendix II as a result of continued illegal and 
unsustainable trade, lack of coordinated management, a vulnerable life 
history, and the prominence of international markets. Researchers 
remain concerned over the status of the humphead wrasse because of its 
importance as a luxury food item and a high market value that is 
predicted to rise with increasing rarity of the species, thus 
encouraging continued exploitation as stocks continue to decline. The 
United States submitted a proposal to list the species in Appendix II 
at COP12, and, although it garnered a majority of votes, it failed to 
gain the required two-thirds majority. Results of recent research on 
the effects of trade on the status of the species should help support 
re-submission. Fiji may be a possible co-sponsor of the proposal.
Bald Eagle
    Since the bald eagle is no longer listed as ``endangered'' under 
U.S. law and no longer subject to significant levels of trade, the 
United States may submit a proposal to transfer this species from 
Appendix I to Appendix II. Bald eagle populations have grown rapidly 
throughout much of their range. Populations continue to grow (there 
were an estimated 6,471 breeding pairs in the lower 48 states in 2000). 
Since CITES provisions only address international trade, the proposed 
amendment to the Appendices would likely have little or no affect on 
additional protections for the bald eagle.
    We manage the largely non-commercial demand for this species 
(ceremonial uses by U.S. and Canadian indigenous peoples) through our 
National Eagle and Wildlife Property Repository which collects bald 
eagle corpses and parts from across the country for eventual 
distribution to federally recognized U.S. Native American tribes 
through a permitting process. There is also some international demand 
for Native American artifacts made with eagle feathers for specialty 
collectors and as curios and this trade would still be controlled under 
an Appendix-II listing. Moreover, there are several other federal and 
state laws and regulations that protect bald eagles in addition to the 
Endangered Species Act, such as the Bald and Golden Eagle Protection 
Act. The bald eagle is also protected under bilateral treaties between 
the United States and other countries, including Canada, for the 
conservation of migratory birds.
Bobcat
    Finally we may propose the removal of bobcat from the CITES 
Appendices. Bobcat was listed in CITES Appendix II in1977 and has been 
kept on Appendix II because of the similarity of appearance of its 
pelts (and products manufactured from those pelts) to those of other 
small spotted cat species listed in Appendix I or II. The Western 
Association of Fish and Wildlife Agencies and the Louisiana Department 
of Wildlife and Fisheries have now requested that the bobcat be removed 
from the Appendices. We are investigating the consequences of removing 
the bobcat from the CITES Appendices on the conservation of other 
protected small spotted cats, particularly the Canada lynx, European 
lynx, and Iberian lynx. We are also seeking input from the other two 
bobcat range countries (Canada and Mexico), and from countries where 
lynx species occur to determine if management and enforcement controls 
in range countries are adequate to nullify look-alike concerns. We also 
continue to consult closely with State fish and wildlife agencies. 
Removal from Appendix II is supported by Canada but opposed by Mexico 
and the EU. While the success of this proposal is doubtful, we believe 
it may be useful to draw attention to the lack of progress in 
addressing identification and trade control problems that have required 
the listing of this species as a look-alike for 25 years.
MULTINATIONAL SPECIES CONSERVATION FUND AND WILDLIFE WITHOUT BORDERS
    The Service currently administers the Multinational Species 
Conservation Fund that includes the African Elephant Conservation Act, 
the Rhinoceros and Tiger Conservation Act, the Asian Elephant 
Conservation Act, the Great Apes Conservation Act and the Neotropical 
Migratory Bird Conservation Act. These programs provide technical and 
cost-sharing grant assistance to range countries for conservation of 
the respective species and their habitats. With regards to African 
elephants, Asian elephants, Rhinoceros and Tigers and Great Apes, the 
Service has funded 559 conservation grants in 46 countries. 
Approximately $25 million in funds appropriated by the U.S. Congress 
has leveraged more than $80 million in matching and in-kind 
contributions from about 500 partner organizations. With regards to 
neotropical migratory birds, the Service has funded 69 projects in 28 
countries throughout Latin America and the Caribbean. Approximately $6 
million appropriated by Congress has leveraged more than $26 million in 
matching funds. Attached to our testimony is a history of the programs 
under the Multinational Species Conservation Fund.
    The Service works closely with foreign governments and local and 
international conservation organizations to identify and support high-
priority actions to protect these species and their habitats. Our 
experience has shown that relatively modest sums, if judiciously 
applied to well-designed and implemented projects, can leverage 
considerable resources and, just as importantly, the interest of 
communities, governments, and the world. As a direct result of funds 
made available by the Multinational Species Conservation Acts, in-
country wildlife researchers and managers are more effectively 
protecting their country's wildlife and habitat resources. On behalf of 
rhinoceroses, tigers, and Asian elephants, we have been one of the 
leaders in helping range countries address the problems affecting the 
continued existence of these animals. The decade-long implementation of 
the African Elephant Conservation Act in Africa has played a 
significant role in U.S. efforts to encourage and assist on-the-ground 
projects aimed at conserving elephants.
    The Service also coordinates these overseas activities with USAID, 
which manages a $155 million per year program in conservation and 
management of biological diversity and forests that links species 
preservation and habitat management with economic development.
    The following are examples of projects that have been supported by 
Multinational Species Conservation Funds:
    <bullet>  African Elephants--Assistance with control of pressure 
from a diverse array of elephant poachers and to institute a 
coordinated system for monitoring elephant (Loxodonta africana 
cyclotis) populations and the traffic of illegal elephant products, 
such as ivory and bushmeat. (2002)
    <bullet>  Asian Elephants--Assistance on the Island of Borneo in 
Malaysia for conservation of elephants and their habitat, and conduct 
of elephant-human conflict mitigation activities in the vicinity of the 
Lower Kinabatangan Wildlife Sanctuary. (2003)
    <bullet>  Great Apes--Ground surveys for chimpanzee and western 
lowland gorilla populations and capacity building among local people 
surrounding this conservation area in northern Republic of Congo. 
(2001)
    <bullet>  Neotropical Migratory Birds--Restoration of about 500 
acres of marsh within Palo Verde National Park in Costa Rica. This 
marsh was once the most important wintering area for waterfowl in 
Central America, including thousands of blue-winged teal and 
potentially over a hundred additional species of neotropical migrants. 
(2002)
    <bullet>  Rhinoceros and Tigers--
        <all>  GIS capacity building of the Cambodia Tiger Team and 
        development of a Cambodia Spatial Tiger Information System. 
        (2001)
        <all>  Ear notching of Black Rhinos on Lewa Wildlife 
        Conservancy and Sweetwaters Rhino Sanctuary. (2002)
    Recently, the Service testified in support of the Marine Turtle 
Conservation Act of 2003, H.R. 3378. H.R. 3378 addresses some of the 
most urgent conservation issues regarding marine turtles and would 
assist current recovery and protection efforts by supporting and 
providing financial resources for projects designed to conserve marine 
turtles and their nesting habitat in foreign countries, such as the sea 
turtle camps in Mexico. Modeled after existing programs within the 
Fund, H.R. 3378 would serve as a flexible funding source for global 
turtle conservation activities.
    Work done through the Multinational Species Conservation Fund is 
complemented by the Service's Wildlife Without Borders Programs. While 
the Multinational Species Conservation Fund focuses on particular 
species, Wildlife Without Borders addresses broader needs that must be 
met for overall success in wildlife conservation. The goal of the 
Wildlife Without Borders Program is to develop locally adapted wildlife 
management and conservation programs to maintain global species 
diversity. Efforts include in-country capacity building, bolstering 
management of natural areas, educating communities on endangered and 
migratory species conservation, and developing public pride in 
wildlife. Wildlife Without Borders initiatives are underway in five 
geographic regions: Latin America and the Caribbean, Mexico, India, 
Russia and China.
    In 2003, Wildlife Without Borders awarded 73 grants in 18 
countries. The U.S. contribution of $1.48 million leveraged $5.43 
million in matching and in-kind contributions from foreign governments, 
international conservation organizations, private businesses and 
community leaders.
    The following are examples of projects supported by funds from the 
Wildlife Without Borders program:
    <bullet>  Latin America and the Caribbean--Partnered with the 
Department of State to hold the Western Hemisphere Migratory Birds 
Conference. The Conference successfully brought together 
representatives from 25 countries in the Western Hemisphere and over 40 
international non-government conservation groups to develop cooperation 
on conservation of migratory species and collaboration on wildlife 
conservation issues.
    <bullet>  Russia--Grants program instituted in 1995 has provided 
more than $600,000 to enhance law enforcement, education activities, 
and infrastructure for Russian federal nature reserves. These funds 
have been used to purchase such operational necessities as park station 
generators, patrol vehicle repairs and fuel and station radios.
    Working with our international partners, we see clear signs of the 
effectiveness of our combined efforts. The Service's work through our 
Multinational Species Conservation programs serve as a catalyst for 
cooperative efforts among the governments of the world, non-
governmental organizations and the private sector to work together for 
a common goal, the conservation and continued existence of species. The 
lessons we learn encourage optimism and help point the way to improved 
action in a world of increasing threats to wildlife.
    In closing Mr. Chairman, I would like to thank you and the other 
Subcommittee Members for your continuing support of the conservation 
and protection of threatened and endangered species throughout the 
world. I would be happy to respond to any questions.
[GRAPHIC] [TIFF OMITTED] T3383.001

                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Stansell.
    Mr. Grasso, welcome.

           STATEMENT OF THOMAS V. GRASSO, DIRECTOR, 
        MARINE CONSERVATION POLICY, WORLD WILDLIFE FUND

    Mr. Grasso. Thank you, Mr. Chairman, and members of the 
Committee. It is a pleasure to be here today, and I appreciate 
the opportunity to testify on behalf of the World Wildlife.
    Mr. Chairman, the world's seas have sustained humanity for 
thousands of years. Yet today, we are plundering the ocean's 
riches and the impact on fish stocks and ocean wildlife is 
almost unimaginable. For example, 15 percent of wild Atlantic 
salmon runs in the North Atlantic are currently extinct. Forty-
two percent of runs are threatened with extinction. According 
to the U.N. FAO, 70 percent of the world's major fisheries are 
either currently overfished, fully exploited, or only slowly 
recovering. A recent scientific report released at the IWC last 
year in Bremen, Germany found that 300,000 small whales, 
dolphins and porpoises are lost each year as a result of 
bycatch in fishing gear. As you have heard here today, in the 
eastern Pacific, leatherback turtles are facing a 90 percent 
decline, and some scientists are suggesting they could go 
extinct in the next 20 years.
    Addressing these problems will benefit all Americans and, 
indeed, Mr. Chairman, as you have pointed out, these issues are 
clearly of an international nature and, as such, potential 
solutions could benefit many people around the world, 
particularly in the developing world, where fish and fishing is 
such an important part of coastal communities' economies. The 
recently released Ocean Commission report and Pew Ocean 
Commission's report confirm the need for urgent international 
leadership.
    WWF today urges the U.S. to take this mantle of leadership 
in three strategic areas. Number one, we recommend that the 
U.S. take leadership in conforming international practices of 
global fishing fleets and the international bodies that govern 
them. I will just give you a brief example of how we can do 
that.
    Last year at the ICCAT meeting, a ban on driftnets in the 
Mediterranean Sea was adopted. That is following on the 
international moratorium on high seas driftnets from a number 
of years ago. The recent report by WWF's Mediterranean program 
found that Morocco still continues to have over 100 vessels 
using high seas driftnets in the southwest Mediterranean Sea, 
in violation of both the ICCAT ban and the U.N. moratorium.
    The Secretary of Commerce's report on the high seas 
driftnets ban from 2003 notes this problem and suggests that 
the U.S. will be taking action. We think the ICCAT meeting that 
will be occurring in November of this year on U.S. soil is a 
prime opportunity to deal with this continued violation of 
international standards.
    Second, addressing global fleet overcapacity by reducing 
harmful government subsidies is a critical issue that needs to 
be addressed to ensure that overfishing is reduced. Fifteen 
billion dollars a year goes to the fishing industry around the 
world from government subsidies. That's roughly 20 percent of 
the value of all global fish products around the world. The WTO 
is currently working on a set of rules and disciplines to 
better inform the way that subsidies are provided to the 
fishing industry, and we encourage the U.S. to continue its 
leadership in working toward a global solution at the WTO that 
will benefit fisheries around the world.
    Third, addressing the impacts of ocean fishing on marine 
biodiversity. As has been noted here today, the U.S. has 
demonstrated leadership in the eastern tropical Pacific with 
the International Dolphin Conservation program, which has seen 
a 98 percent reduction in dolphin mortalities in the eastern 
tropical Pacific tuna fisheries.
    We are now seeing the U.S. working with the Government of 
Japan to reduce sea turtle bycatch at the IATTC 
internationally. Again, we have an opportunity at this year's 
IATTC to push for mandating the use of alternative gears that 
will reduce sea turtle bycatch. An import player in this arena 
is the European Commission, and we encourage the U.S. to 
pressure the EU to go along with this solution.
    In conclusion, Mr. Chairman, WWF notes and appreciates the 
U.S. leadership that has been demonstrated on international 
matters. To wit, a few: protecting wild salmon from 
indiscriminate fishing off the coast of Greenland for wild 
salmon; leading the effort on the new treaty in the western 
Pacific, which WWF participated in on the U.S. delegation for 
the last 5 years; and work with Japan on turtle bycatch in the 
Pacific.
    We urge the U.S. to strengthen its role by first of all 
acceding to the Law of the Sea convention, and to provide full 
financial support for the international institutions that have 
been mentioned here today.
    I would like to ask that my testimony be submitted for the 
record and I would be happy to answer any questions you may 
have. Thank you.
    Mr. Gilchrest. Without objection, so ordered.
    [The prepared statement of Mr. Grasso follows:]

 Statement of Thomas V. Grasso, Director, Marine Conservation Policy, 
                          World Wildlife Fund

    Good Morning Mr. Chairman and Members of the Committee. My name is 
Tom Grasso and I am the Director of Marine Conservation Policy for 
World Wildlife Fund (WWF). On behalf of WWF, I want to thank the 
committee for the opportunity to present our views on the role of the 
United States in international treaties concerning ocean fisheries. 
World Wildlife Fund, with 1.2 million members in the U.S. and over 5 
million worldwide, is the largest private conservation organization 
working to protect wildlife and wildlife habitats in more than 120 
countries.
    The world's seas have sustained and nurtured humanity for 
millennia, providing a seemingly endless bounty--everything from food 
and fiber to minerals and medicines, from the simplest subsistence 
livelihood to the grandest luxury recreation. But today we are 
plundering the blue waters in a manner that, if we could see it as 
easily as the same phenomenon on land, would look a lot alike the last 
buffalo hunt in the American West. Protecting the web of life in our 
oceans and reversing the present trend in biodiversity loss, fisheries 
declines and ecosystem disruption will require a long-term, ambitious 
effort by all coastal countries and the international community as a 
whole.
Major challenges in the management of migratory fish stocks
    The conservation status of important migratory fish populations has 
been the subject of considerable public attention during the past year. 
Articles such as last summer's Nature piece by Ransom Myers have 
highlighted declines in the numbers of large ocean predators such as 
tunas and sharks. The need for more effective management of 
international fisheries is noted in the reports of both the Pew Ocean's 
Commission and the United States Commission on Ocean Policy. Besides 
the status of the targeted fish stocks themselves, the effect of high 
seas fisheries on other species of ocean wildlife is also a cause for 
concern. While there is some debate in the scientific community 
concerning the precise numbers, the big picture trajectories in many of 
these fisheries and their impact on ocean biodiversity are well 
understood and troubling:
    <bullet>  In the Atlantic, 15 percent of wild salmon stocks have 
been extirpated and another 42 percent are considered threatened with 
extinction.
    <bullet>  70 percent of the world's major fisheries are overfished, 
fully exploited or only slowly recovering.
    <bullet>  Every year 300,000 small cetaceans--whales, dolphins, and 
porpoises--are killed as bycatch in fisheries around the world. For 
some species, such as the Northern Right Whale, interactions with 
fishing gear are endangering their very existence.
    <bullet>  Scientists estimate that only 3000 Eastern Pacific 
Leatherback sea turtles remain in the eastern Pacific Ocean--a 90 
percent decline in the past 20 years. Some scientists warn of the 
possible extinction of leatherbacks there in the next 20 years if 
threats associated with fisheries bycatch and other factors are not 
addressed.
    Addressing these problems and managing these ocean fisheries more 
effectively is in the best interest of all Americans. Fisheries serve 
as an important source of food, jobs, and recreation. The health of 
their associated ecosystems underpins the economies of coastal 
communities in the United States and other nations that are our 
important allies.
    WWF recommends to the committee today a series of actions by United 
States in international fora that will lead efforts to protect the 
dwindling resources of the world's oceans. In short, the United States 
must take international leadership to:
    <bullet>  conform existing regional management bodies to U.N. 
adopted standards;
    <bullet>  take serious steps to address the overcapacity of the 
global fishing fleet; and
    <bullet>  address the impacts of pelagic fisheries on the ocean's 
web of life.
Conforming regional fisheries management to the letter and spirit of 
        the United Nations Implementing Agreement (UNIA)
    Over the past decade, a robust body of ocean law and policy has 
been developed to manage international fisheries. The pinnacle of this 
process was the adoption of the U.N. Implementing Agreement. While some 
progress has been made, WWF urges the U.S. to continue its efforts 
aimed at strengthening current Regional Fishery Management Organization 
(RFMO) conventions and the policies adopted under them to make them 
consistent with the UNIA. RFMOs were intended as the ``delivery 
mechanisms'' for the UNIA, but current conventions and policies fall 
far short of the UNIA's ambitious prescription for sustainable 
management of highly migratory and straddling stocks. The upshot of all 
this is, too often, overfishing and a failure to realize the economic 
and social benefits that could be derived from these fisheries if they 
were managed in a fashion that comported with the UNIA's mandates. WWF 
recommends that the U.S. ramp up its work to strengthen these 
conventions in a more systematized way, based on a convention-by-
convention assessment of conformance with UNIA.
    There are a variety of ways--ranging from diplomacy to the use of 
trade restrictions--in which the U.S. can ensure that International 
agreements are taken seriously. A good case in point for U.S. action is 
the continuing use of large scale drifts by the fishing fleets of 
Morocco. The scientific study conducted by WWF scientists and others 
entitled ``Driftnet fishing and biodiversity conservation: the case 
study of the large-scale Moroccan driftnet fleet operating in the 
Alboran Sea (S.W. Mediterranean),'' found the continued use of large-
scale driftnets operating on the high seas in the southwestern 
Mediterranean. This report was noted in the ``2003 Report of the 
Secretary of Commerce to the Congress of the United States Concerning 
U.S. Actions taken on Foreign large-scale high seas driftnet fishing 
pursuant to section 206(e) of the Magnuson-Stevens Fishery Conservation 
and Management Act, as amended by Pl 104-297, The Sustainable Fisheries 
Act.'' This report notes that the U.S. is currently investigating the 
allegations enumerated in the WWF scientific paper. We respectfully 
submit this Scientific Paper and request that it be included in the 
record of this hearing. The Secretary's report indicates the need to 
confirm the WWF finding that the Moroccan driftnet fleet contravenes 
the international moratorium on large scale driftnets in that the nets 
exceed 2.5 km in length and are operating on the high seas. The WWF 
paper indicates that 177 vessels with an average net length of 6.5-7.1 
km are causing bycatch of pelagic sharks, short-beaked and striped 
dolphins and loggerhead turtles. WWF recommends urgent action by the 
U.S. to address this issue through all diplomatic means possible.
Taking overcapacity seriously
    The overcapacity of the world's fishing fleets is widely recognized 
as a major culprit contributing to overfishing which is undermining 
economic returns from fisheries and exacerbating the adverse 
environmental effects of fishing. Estimates by WWF in the late 1990s 
placed global fishing fleet overcapacity at 150 percent, meaning that 
there are roughly two-and-a-half times the level of fishing power in 
the fleet needed to achieve a catch level that would not further 
deplete stocks (Porter, 1998).
    In 1999, the international community sought to address this 
critical problem through adoption of the United Nations FAO 
International Plan of Action for Managing Fishing Fleet Capacity which 
was intended to have national and regional management bodies address 
overcapacity by 2005. Unfortunately, efforts to date suggest that the 
goal of effectively managing fishing fleet capacity will not be 
achieved. The current real world practice of fishing fleet capacity 
management and reduction is out of step with these policy 
pronouncements. For example, in the Eastern Tropical Pacific, the tuna 
purse seine fleet has increased its capacity roughly 70 percent in the 
past decade. That fishery is seeing both the economic and ecological 
consequences--each year the fleet must be closed for a month or more 
because of that increased capacity.
    The U.S. must continue to play a leadership role in the Inter-
American Tropical Tuna Commission's Working Group on Fleet Capacity and 
to press the need to address growing overcapacity in the western 
Pacific where both conservation groups and the seafood industry agree 
that capacity growth is a threat. In the Western and Central Pacific 
Ocean, where close to half the world's supply of canned tuna is caught, 
a regional commission has yet to begin managing the fisheries. First on 
the list of tasks for the new commission should be the adoption of a 
capacity management scheme to avoid replicating the problems that are 
occurring in the Eastern Pacific. The U.S. should move swiftly to 
ratify the new Treaty for the Western and Central Pacific and lead 
efforts to build support for a regional management plan. Such a plan 
will benefit both fishing interests and the web of life in the ocean.
    Lastly, government subsidies to the fishing industry are widely 
viewed as sending negative signals to fishermen. Open access and 
government subsidies have hastened the status of the current global 
fleet overcapacity. Indeed, current estimates of the subsidies are at 
$15 billion worldwide (roughly 20 percent of the value of global fish 
catch) with the bulk of these subsidies leading to overfishing. Thanks 
in part to U.S. leadership, the WTO, at the 2001 WTO ministerial 
meeting in Doha, Qatar, agreed to begin negotiations on fishing 
subsidies by committing to ``clarify and improve WTO disciplines on 
fisheries subsidies.'' Efforts continue at the WTO as rules 
negotiations continue. Reinvigorated U.S. leadership will be necessary 
to continue bringing serious reform to disciplines governing fishing 
subsidies.
Addressing the impacts of pelagic fisheries on the ocean web of life
    Article Six of the United Nations Implementing Agreement requires 
countries to take into consideration the impact on ``non-target and 
associated or dependent species and their environment, and to adopt 
plans which are necessary to ensure the conservation of such species 
and to protect habitats of special concern.'' (UNIA Art. 6(d)) RFMO 
attention to this important set of issues is quite uneven at the 
moment--fleet performance is often short of the mark even given the low 
expectations for performance currently in place. Indeed, in 2002 WWF 
and several East Coast states filed a Pelly Amendment petition to the 
Secretary of Commerce concerning the failure of the EU to reduce its 
fishing fleet impacts on Atlantic White Marlin, which is a bycatch 
species of those fleets.
    At the same time, there are success stories. Where nations and 
fisheries have made this a priority, innovative solutions have been 
crafted. Efforts among the U.S. and Latin American countries have 
reduced the dolphin bycatch by 98 percent in the Eastern Tropical 
Pacific tuna fisheries through the International Dolphin Conservation 
Program of the IATTC.
    The United States is poised to play a similar leadership role in 
reducing the bycatch of sea turtles. The conservation status of 
leatherback sea turtles in the Pacific is dire: some scientists predict 
extinction in the next several decades. One cause of the decline in 
leatherback numbers is bycatch by vessels fishing with longlines. 
Fortunately, recent research led by NOAA suggests that longline turtle 
bycatch can be dramatically reduced through the use of circle hooks and 
related conservation measures. The U.S. is already working with fleets 
in the Pacific to see if these measures produce similar positive 
results there. This effort must be redoubled, given the plight of 
Pacific leatherbacks, and my organization pledges to work with NOAA on 
this important initiative. We urge the United States to make this a 
priority.
    Given that bycatch of marine species is global phenomenon, WWF 
strongly recommends that the U.S. develop science-based priorities for 
a U.S.-led international bycatch reduction initiative--focusing on the 
instances in which bycatch in international fisheries poses the 
greatest threat to biological diversity. There are a number of 
promising partnerships emerging that could be better coordinated into a 
global effort. Working together, fishermen, scientists and 
conservationists can often solve these problems in ways that benefit 
ocean wildlife and reduce costs to fishermen.
Conclusion: Strengthening the United States' leadership role as 
        advocates for international fisheries sustainability
    As longtime participants in many of the regional organizations 
responsible for the health of migratory fish stocks, World Wildlife 
Fund wishes to acknowledge the proactive role played by the United 
States in encouraging more prudent management of these ecologically and 
economically important fisheries. Examples of U.S. leadership include:
    <bullet>  the successful effort to curtail fisheries that threaten 
America's endangered populations of Atlantic salmon,;
    <bullet>  our prominent role in shaping the new treaty that will 
govern the world's most valuable tuna fishery in the western Pacific 
Ocean; and
    <bullet>  the recent United States initiative to minimize the 
bycatch of sea turtles by pelagic longlines.
    Nevertheless, the U.S. Oceans Commission's recently released report 
is a strong reminder that we should redouble our efforts. For effective 
international leadership, WWF strongly encourages this committee to 
support the U.S. acceding to the U.N. Convention on the Law of the Sea 
(UNCLOS). Acceding to the UNCLOS is also a recommendation of the U.S. 
Ocean Commission. Additionally, WWF supports continuing the engagement 
of the U.S. in multilateral treaty bodies including paying fees and 
providing appropriate support for regional bodies.
    Mr. Chairman, thank you again for the opportunity to testify. I 
would be pleased to answer any questions you or the Committee may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Grasso.
    We will probably have a few rounds of questions. I'm sure 
that members will have questions which will exceed their 5 
minutes. And I want to welcome the gentlelady from Guam for 
coming to the hearing.
    Dr. Hogarth, the ICCAT meeting that occurred--I guess it's 
now in November, in Dublin--you said this morning, and having 
spent a day there, that for the most part it was pretty 
successful. There were conservation agreements concluded. There 
were enforcement provisions to those conservation agreements. 
Even though it's a little bit early, can you respond to two 
questions:
    What were the conservation agreements, and in particular, 
how were they to be enforced, or what are the consequences of 
nations violating those conservation agreements, and can you 
address the comment that Mr. Grasso made, that Morocco is still 
out there with these driftnets in violation of those 
agreements?
    Dr. Hogarth. Thank you, Mr. Chairman.
    There were several things. For once, we finally at the last 
ICCAT meeting had a very detailed compliance meeting. It 
passed. When we talk about compliance, most of the countries 
have sort of ignored it and wouldn't even come to the table. 
Chris Rogers of our highly migratory group led the compliance 
issues at the last meeting, and did an outstanding job of 
making the countries discuss their problems and address why 
they were out of compliance.
    Then we passed last year the trade regime, the trade 
restriction. This will be the first year in 2004 where we see 
some teeth really come into compliance, because we have not had 
any real teeth for compliance. But the trade regime will give 
us the teeth for that.
    We will have to watch very carefully. We have right now 
pending a certification against the European Union for 
diminishing the effectiveness of ICCAT, through the taking of 
small fish and for not adhering to the quotas. We will find out 
this year what progress they have made against the reduction in 
small fish.
    As far as Morocco, we spent a lot of time at the last 
meeting on that. They asked for some more time. We will not get 
a full report until this fall's meeting in November here. If 
not, I feel pretty sure that action will be taken. There is a 
lot of discussion about the number of nets, and they are really 
taking small fish. That is one of the real concerns, that 
they're taking small fish, tremendous numbers of small fish. So 
2004 will be the opportunity for us to see if we can really get 
teeth into these compliance issues. I think we will.
    Mr. Gilchrest. Mr. Balton, would you like to comment on 
that as well from the State Department's perspective, on the 
conservation agreements and the consequences of not abiding by 
those agreements?
    Mr. Balton. Mr. Chairman, the agreements themselves overall 
are very strong. We have had a decade of putting good words on 
paper. But you are right to call into question compliance and 
implementation as the fundamental issue right now.
    Worldwide, we don't have the level of compliance with all 
of these instruments that we would like to see. But the 
driftnet ban is an interesting matter. I would like to put it 
into a larger context.
    Before the U.N. driftnet ban was created, we had fleets 
from Asia of 300 and 400 vessels each in the North Pacific 
intercepting U.S. origin salmon, sea birds, marine mammals. 
Those fleets are gone. The moratorium worked in a very real 
way. There is good compliance overall with it.
    The problems we are left with are smaller. We have had 
problems with Italy in the Mediterranean and I think we have 
solved that one now. It seems we have a problem with Morocco in 
the Mediterranean--
    Mr. Gilchrest. How did you solve the problem with Italy?
    Mr. Balton. We negotiated two agreements, one in '96 and 
one in 1998, that led to a close down of the Italian driftnet 
fishery. We had support from the EU as well in pressing the 
Government of Italy to--
    Mr. Gilchrest. But why did Italy comply with that? What 
were the consequences if they didn't?
    Mr. Balton. There were several. One was the EU had issued a 
directive that was binding on Italy to do so. There is also a 
U.S. law in question you may know, the High Seas Driftnet 
Fisheries Enforcement Act, that could lead to sanctions against 
countries that do not observe the U.N. moratorium.
    Mr. Gilchrest. Does this also apply to Morocco?
    Mr. Balton. It applies to any nation, sir.
    Mr. Gilchrest. Is Morocco aware of that and are we having 
discussions with Morocco to that end?
    Mr. Balton. Currently, our efforts with Morocco have 
focused through ICCAT. It may be that if we do not succeed, as 
Mr. Grasso suggested, using the meeting in New Orleans to solve 
this problem, maybe we need to make it a bilateral U.S./Morocco 
issue as well.
    Mr. Gilchrest. Is it a cultural issue with Morocco? Is it 
an enforcement issue with the government not being able to 
enforce that provision, the Moroccan government not being able 
to stop the driftnets?
    Mr. Balton. No, I would not say it's a cultural issue, as 
such.
    There is something unusual about the Mediterranean you need 
to know. The U.N. moratorium applies on the high seas, and in 
most places in the world that exists only beyond 200 miles. 
There are no exclusive economic zones in the Mediterranean. The 
high seas begin at 12 miles from shore. So fairly small boats 
using driftnets are not complying with this high seas 
moratorium on driftnets. But the Mediterranean is an unusual 
area in that respect.
    Mr. Gilchrest. It's unusual because--
    Mr. Balton.--because of the high seas being so close to 
shore.
    Mr. Gilchrest. I see. OK. Thank you very much.
    I will yield to the gentleman from New Jersey.
    Mr. Pallone. Thank you, Mr. Chairman.
    I have a question regarding language that was in the recent 
conference report on the consolidated appropriations act. I 
guess that's the omnibus that we passed earlier this year.
    There is specific language in the report that directs the 
State Department to ``prioritize, as necessary, among 
commissions, according to policy goals, take steps as necessary 
to withdraw from lower priority commissions, and refrain from 
entering into new commitments.''
    Now, I guess I should say right off that I don't agree with 
this language or the conference report. But I just wanted to 
ask you some questions about that language.
    How has the State Department responded to this direction 
from Congress to date, and specifically, how has the State 
Department prioritized its involvement in international 
commissions and what's the reasoning behind which commissions 
are higher or lower priority? What does the State Department 
view as lower priority commissions? I'm just trying to get some 
idea of how you have responded to this language, which I think 
was a mistake.
    Mr. Balton. Congressman Pallone, we were not very happy 
with the language, either.
    The response is a matter of trying to decide how to 
allocate the money that was appropriated among the various 
commissions. We regard all of these commissions as vital and 
serving U.S. economic and conservation interests.
    I feel like I need to say the United States is a member of 
these organizations, not because the State Department wanted us 
to be. U.S. constituent groups called upon us to join. We are a 
party only because the Senate has given advice and consent to 
the underlying treaties, and that Congress as a whole has 
passed legislation to implement all of our obligations under 
these various regimes.
    We have prioritized to the extent we have tried to take the 
money, which included in 2003 a $3 million shortfall, and 
spread it around to allow as many of the vital functions of 
each of these organizations to proceed as possible. But we are 
in arrears and there are threats to a U.S. standing in these 
organizations. We could face the loss of vote in some 
organizations. U.S. fisheries might lose the right to fish for 
some of the stocks regulated by these commissions if our 
arrears persist.
    Mr. Pallone. I'm not surprised. I am certainly sympathetic. 
In other words, you haven't actually done a prioritization. 
You're just trying to spread the money around and do the best 
you can is the best way to say it, I guess.
    Mr. Balton. Yes, that would be a good way to say it.
    Mr. Pallone. I guess you have already answered my other 
question, which was whether this prioritization process is a 
deterrent--well, no, you haven't answered this.
    Does this prioritization, or whatever you have to do with 
these funds now, spreading them around, become a deterrent to 
the U.S. Government from entering into new agreements or 
treaties, and is it going to undercut U.S. global leadership?
    Mr. Balton. Certainly yes to the latter part of your 
question. I think if we don't pay our dues--and these are not 
voluntary contributions. Virtually all the money in this 
account, and it's not a great deal of money, nevertheless 
represents mandatory, legally binding obligations the United 
States has undertaken.
    There is a new commitment on the horizon. A number of 
people here at the witness table today, including myself, 
mentioned the new convention creating a new fishery commission 
for the central and western Pacific. We are not yet party to 
that. We hope to be party to it very soon. We will have to 
share a part of the budget for that, and that will be a new 
commitment, presumably to be funded out of the same account.
    Mr. Pallone. So it is possible you wouldn't be entering 
into it because of this language?
    Mr. Balton. Whether we become a member of that commission, 
Mr. Congressmen, in the first instance, is up to the Senate. 
They would need to give advice and consent to the treaty, and 
then we would also need this House, along with the Senate, to 
pass the legislation necessary to implement our obligations 
more generally. So it's not our decision alone on whether we 
join. It's a collective decision by the Executive and 
Legislative branches together.
    But if we join, then we do have the obligation to pay our 
dues, it seems to me.
    Mr. Pallone. OK. Well, I think we already said that, 
according to the State Department, after taking into account 
the Fiscal Year 2004 shortfall and the Fiscal Year 2003 
arrears, international fisheries commissions were underfunded 
by $1.7 million. You explained how the shortfall affects the 
U.S. participation. Obviously, the President has put in his 
budget request that would restore the funding, so you support 
that.
    Let me just ask you one thing, if I could, Mr. Chairman, 
about the convention on the Law of the Sea. The U.S. Commission 
on Ocean Policy report recommends that the U.S. ratify the Law 
of the Sea Treaty, which obviously I feel they should have done 
a long time ago. I know this treaty has support from the 
Administration, specifically the Navy and the State Department. 
However, there are a few dissenting votes or voices against 
entering into the convention. I might add that some of these 
dissenting views come from the very same people that supported 
our entry into NAFTA and the WTO. You know, I think it's kind 
of hypocritical on the part of those who say that we shouldn't 
enter into a Law of the Sea Treaty, but then they think we 
should enter into NAFTA and the WTO.
    For the record, what are your positions, State, Interior, 
NOAA, World Wildlife Fund, what are you positions on the U.S. 
entering into the Law of the Sea Convention? Do you think it 
would affect our role in international conservation and 
management, whether you think it's a good idea.
    I know I have run out of time, Mr. Chairman.
    Mr. Balton. Thank you, Congressman Pallone.
    Let me be absolutely clear about this. This Administration 
strongly supports U.S. accession to the Law of the Sea 
Convention at this time, because we believe it advances both 
our national security and our economic and conservation 
interests.
    We see great benefits from the treaty to the United States, 
both as a major maritime power and as a country with the 
largest exclusive economic zone in the world, and a very broad 
continental shelf as well.
    There were a number of hearings in the Senate. 
Administration witnesses, not just from the Navy and not just 
from the State Department, testified in strong support of this 
treaty. Most recently, there were hearings following the 
hearings in the Foreign Relations Committee last fall, in the 
Senate Environment and Public Works Committee, the Senate Armed 
Services Committee, and I believe there is to be one final 
hearing before the Senate Select Committee on Intelligence.
    This Administration, the President, has put this treaty at 
the very top of the priority list for Senate ratification. We 
have been working hard with Congress to assuage these concerns 
that you have mentioned, Congressman Pallone, including some 
relating to intelligence gathering and national security. But 
we believe that, overall, this treaty has great benefits for 
the U.S. and that it is high time we did become party and join 
the 145 other states that have done so.
    Mr. Pallone. Thank you.
    Can the rest of you comment on that?
    Dr. Hogarth. Thank you, Congressman.
    Yes, we feel very strongly that we should ratify the Law of 
the Sea. We have for several years. That is the 
Administration's position and we hope we can soon get it done.
    While I have the floor, I would like to say one other 
thing. All of these treaties are in the State Department, but 
every one of them just about affect fisheries and how we manage 
internationally. So we are very supportive of the Department of 
State and are very concerned with the fact that we do not have 
the funds necessary to pay our fair share.
    Because many of these other countries, such as Japan, spend 
lots of money in the international arena. In fact, Japan is 
spending $350,000 a year extra to ICCAT to try to get involved 
in more science. Obviously, it's the way these countries go for 
votes and all. So these treaties are extremely important for 
fisheries, for sea turtles, for all the management issues that 
we're involved in, and we support the Department of State in 
their efforts to try to get sufficient funding, and we know the 
Administration does.
    Mr. Pallone. Thanks.
    The World Wildlife Fund, did you want to comment?
    Mr. Grasso. Just briefly, the World Wildlife Fund 
unequivocally supports the U.S. acceding to the Law of the Sea 
Convention. We feel, in our experience in participating on U.S. 
delegations, as well as observers to a number of these 
international bodies, the lack of the U.S. ratification of this 
important treaty, as well as the problems with funding in these 
commissions, oftentimes puts the U.S. in a compromise position 
when they're trying to lead issues of conservation in these 
international bodies. So if we can fix this problem, and if we 
can provide the type of funding that is necessary, we think it 
will put the U.S. in a much better position to be effective.
    Mr. Pallone. Thank you. It's hard to believe. I remember 
when I was in college when they were negotiating it. It's like 
130 years ago, something like that. It might as well be 100 
years ago.
    Mr. Gilchrest. Probably at least 10 years.
    [Laughter.]
    Mr. Pallone. No, it's like at least 30, Mr. Chairman. Thank 
you.
    Mr. Gilchrest. The gentlelady from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman, and 
Ranking Member Pallone, gentlemen.
    My concerns have to do with the Pacific area. I represent 
Guam, and another one of my colleagues who sits on this 
Committee, Mr. Abercrombie, has also asked me to inquire.
    The first question. The U.S. is one of 18 signatories to a 
convention that created the Western and Central Pacific Ocean 
Fisheries Commission. What is the status of this commission?
    The other question that I would like to ask, a general 
question, one issue that needs to be addressed in the Western 
and Central Pacific is excess fishing capacity, or the 
potential for too many vessels in the fishery.
    I don't know which one of you would care to answer.
    Mr. Balton. Congresswoman, perhaps I can start, and perhaps 
Dr. Hogarth has additional information as well.
    First, on the status of the convention you asked about, 
you're right, the United States, along with 17 others, have 
signed this treaty. We signed it in September of 2001. The 
State Department is now working with our colleagues in the 
other agencies and the White House to submit the treaty to the 
Senate seeking advice and consent. We would also need both 
Houses of Congress to pass legislation to implement U.S. 
obligations under that convention, and we would look forward to 
working with you and others in developing that legislation.
    The treaty is going to enter into force without us in June 
of this year. Fourteen states have already completed the 
ratification process, 14 nations. That was the threshold needed 
for enter into force. There will be a final preparatory meeting 
toward the end of this year, in December, and then the 
inaugural meeting of the commission, as such, will take place 
shortly thereafter.
    Even though we are not yet a party, we are a principal 
player in this process. Everybody expects that we will soon be 
a party, and they very much need the United States' leadership 
and expertise and we are very welcome there.
    Ms. Bordallo. The other question I asked about, excessive--
too many fishing vessels in the Pacific area, is that--
    Dr. Hogarth. I'll take an attempt on that.
    There are several avenues that we're pursuing on capacity. 
One of them is the IATTC. The Eastern Tropical Pacific has 
already taken some measures there. This new convention will be 
the way to really get to the Central and Western Pacific.
    Capacity is a worldwide issue that we have to deal with, 
and we're going to have to deal with it through these 
international treaties. I think this new convention will be the 
avenue to get to the central and western. But we are very 
concerned and are all working. IATTC has already done some 
work.
    From the Atlantic standpoint, ICCAT is now working on 
capacity control, and we are working worldwide on the illegal, 
unreported and unregulated vessels, which at one time was 
estimated to be over 300 to 400 vessels. We have lists now that 
are owned to try to get them out of the fisheries. This is not 
an issue that we take lightly, and we're working on it in 
several avenues.
    Ms. Bordallo. So it is under consideration?
    Dr. Hogarth. Yes ma'am.
    Ms. Bordallo. Thank you.
    Mr. Chairman, I have a couple of others that have to do 
with sharks and turtles. This is the Pacific area again. I 
think this would go to Mr. Balton.
    Could you give us an update on the implementation of the 
UN's international plan of action for the conservation and 
management of sharks, and what does the U.S. hope to accomplish 
at the meeting of APEC, which is going to be held in Chile, I 
think, with regards to sharks?
    Mr. Balton. Thank you for that question, Congresswoman. 
This international plan of action, as you may know, was adopted 
at the FAO in 1999, largely in response to U.S. calls that the 
international community turn better attention to the management 
of sharks, many species of which are in bad shape.
    With the adoption of that, we have followed up nationally 
by developing our own plan of action, national plan of action, 
on sharks. Our friends in NOAA had the lead on that.
    We have gotten the United Nations as a whole to endorse 
strong action to conserve shark species, and we are now, as you 
mentioned, working through APEC, the Asia Pacific and Economic 
Cooperation forum, to implement those measures for the 
conservation of sharks in the entire Pacific Rim area.
    One reason why APEC is a good forum for this, 
Congresswoman, is that there is a key player on fisheries that 
is not represented at the United Nations or at the FAO, and 
that is Taiwan, but they are represented in APEC, and using 
APEC, it is our hope to get Taiwan to work with us and others 
to implement these measures to conserve sharks.
    Ms. Bordallo. I was thinking, in order to promote research 
on these large international species, would it be helpful to 
set up a fund, like we do for the great ape, the Asian 
elephants and tigers?
    Mr. Balton. Certainly, if we expect the developing 
countries of the world to be able to implement the types of 
measures we are calling for, we need to provide assistance to 
them, not just for shark conversation but for all the issues we 
are discussing today.
    Yes, more money is needed is the short answer. We're in a 
tight fiscal climate. We understand that. This is a high 
priority.
    Ms. Bordallo. Mr. Chairman, I know my time is up. If I 
could just ask one quick question again.
    Will the U.S. take a harder line internationally on 
longliners that take turtles? I don't know who would answer 
that.
    Dr. Hogarth. Yes, we are. We are doing quite a bit now 
internationally on sea turtles. We are working directly with 
about 12 to 14 countries. We have new technology we have 
developed, which we just implemented in the Hawaii swordfish 
fishery, and we're getting ready to on the East Coast. We have 
taken this technology, basically hooks and bait, and we have 
gone internationally with it.
    Last year at ICCAT we had a display, in which we gave the 
new hooks to certain countries. We are very aggressively 
pursuing this new technology with all the countries that have 
longline fleets.
    Ms. Bordallo. Are we carefully monitoring?
    Dr. Hogarth. We are trying to monitor and at the same time 
we're having workshops. We just had a workshop in Ecuador, 
along with the Department of State. I think we had like 5-600 
people that attended. We worked with Japan. I have a list here, 
but it's about 12 countries.
    Ms. Bordallo. Is Guam included in that?
    Dr. Hogarth. Guam is in there.
    Ms. Bordallo. And the State of Hawaii?
    Dr. Hogarth. Yes, ma'am.
    Ms. Bordallo. Just to make sure. Thank you very much.
    Dr. Hogarth. The Western Pacific Council in Hawaii has been 
very active in sea turtle conservation worldwide, really in the 
Pacific.
    Ms. Bordallo. Was there someone else who wanted to speak? 
All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you very much, Ms. Bordallo.
    Going back to Mr. Pallone's question as far as the amount 
of funding that goes to these international commissions, and 
trying to prioritize these international commissions 
recommended by Congress, and maybe even consolidating some of 
them, even before we begin to think about or become a member of 
the Western Central Pacific Fishery Commission, which I guess 
they cut the ribbon in June. But the money for that commission 
from the U.S. is then not going to be appropriated until '05, 
and I understand it is $500,000.
    Is that $500,000 that the Administration has budgeted for 
the Western Central Pacific Commission the dues requirement? 
What does that figure represent?
    Mr. Balton. Mr. Chairman, we requested the $500,000 for 
that commission on the assumption that we would become a party 
to the treaty some time during the course of '05, and that 
$500,000 represented our best estimate of what the partial 
year's U.S. dues would cost.
    Mr. Gilchrest. So some of that money would be for dues and 
some of it would be for contributing to the kitty to do 
research, administrative expenses.
    Does the $500,00, do you think, with your best guess, 
provide sufficient funding for U.S. participation in that 
commission?
    Mr. Balton. That's a hard question to answer, Mr. Chairman, 
because I don't know the timing of when we're going to become 
party and what part of Fiscal Year 2005 we will be in at that 
time.
    Mr. Gilchrest. Do you need Senate ratification to become a 
party to--
    Mr. Balton. Yes, we do.
    Mr. Gilchrest. I see.
    Mr. Balton. Obviously, that's not entirely in our hands.
    Mr. Gilchrest. Until you get Senate ratification, what is 
your participation status?
    Mr. Balton. Well, until the treaty enters into force, we're 
in the same status as everyone else. Once the treaty enters 
into force without us in June, we are a nonmember--
    Mr. Gilchrest. You're sidelined.
    Mr. Balton.--an observer. But, as a matter of reality, they 
need us there. We are still a very strong voice in the 
commission and we have found ways to contribute voluntarily to 
the process outside of this appropriation.
    This appropriation, the one we're talking about today, 
represents U.S. dues to treaties that we have already ratified. 
We--
    Mr. Gilchrest. So this $500,000 is not just for the Western 
Central Pacific Commission?
    Mr. Balton. No. We had asked for $500,000 for that 
commission.
    Mr. Gilchrest. Just for that commission?
    Mr. Balton. Yes, sir. The appropriation as a whole we have 
sought, in excess of $20 million--
    Mr. Gilchrest. For '05.
    Mr. Balton. Yes.--slightly more than $12 million of that 
goes to one commission.
    Mr. Gilchrest. I was going to ask you about that.
    Mr. Balton. Yes. The Great Lakes Fishery--
    Mr. Gilchrest. If we look at ICCAT, which is $165,000, and 
we look at the International Whaling Commission, which is 
$116,000, we look at the total budget which you asked for and 
didn't quite receive in '04 was $20 million, and then you look 
at $12,248,000 for the Gulf Fisheries Commission--
    Mr. Balton. Great Lakes.
    Mr. Gilchrest.--that's right, Great Lakes, why is the Great 
Lakes Fishery Commission so expensive when you look at some of 
these other commissions that cover vast areas and a dozen or 
two countries?
    Mr. Balton. There are two reasons, Mr. Chairman. The first 
is the very one you just mentioned. With respect to an 
organization like ICCAT, where there are 35 or 40 members, 
there are many more to share the budget. The Great Lakes 
Fishery Commission is just the U.S. and Canada. Because more of 
the Great Lakes are in the United States--and Lake Michigan is 
entirely in the United States--we actually pay more than 50 
percent of that budget. So that's the first reason.
    The second reason is, a significant part of the money 
appropriated for the Great Lakes Fishery Commission goes to one 
particular program, and that is to eradicate invasive species 
of sea lamprey that infest the Great Lakes and cause severe 
damage to the fisheries. It's a very expensive undertaking and 
a large percentage of that $12 million goes to that purpose.
    Mr. Gilchrest. I see.
    Mr. Balton. But the remainder of the appropriation, $7 
million or so, between $7 and $8 million, is spread over all 
the other commissions.
    Mr. Gilchrest. So the $165,000 that goes to ICCAT, what 
does that represent? Is that the U.S. dues?
    Mr. Balton. That's correct. Under the ICCAT treaty, there 
is a formula developed for contributions to the organization, 
and our legal obligation to pay each year is in that order of 
magnitude. It goes up or down a little bit each year, depending 
on the programs the organization is undertaking, depending on 
whether new members join.
    Mr. Gilchrest. The conference committee apparently did make 
some reference that Mr. Pallone read, to prioritizing these 
commissions.
    First of all, let me just say that this Committee is going 
to work to get sufficient funding for all these commissions. We 
will talk personally to members on the House and Senate side as 
to the importance of keeping U.S. participation, which is vital 
in these things, sufficiently funded, so that the members, 
whether they're from Commerce or Interior or State Department, 
or from the World Wildlife Fund going to observe, feel that 
they have the sufficient backing of this Government to 
participate in those particular areas. So we will pursue that. 
Mr. Pallone and I, Mr. Saxton and other members of this 
Committee, will pursue that very aggressively.
    But when they did say prioritize, and they looked at the 
list of the commissions, is it possible, for example, to put 
some of the commissions that the U.S. participates in with 
Canada, a number of different commissions in the Pacific, can 
they be consolidated, and a number of different commissions 
that we deal with the Canadians and a few of the European 
countries in the North Atlantic, is that a reasonable thing 
that we can do? I know you need agreements from Canada and a 
number of other countries in order to do that, but is that a 
reasonable objective to pursue, or is that something we ought 
to just leave alone?
    For example, NASCO is $27,000. I guess that's our dues, a 
relatively small operation. And NAFO is $156,000, which is 
relatively small. I'm forgetting the actual names of these 
things, but when we look at PSC, IPHC, each of them is a little 
over $2 million.
    Mr. Balton. That's correct.
    Mr. Gilchrest. When we go to talk to our colleagues and we 
need the money for this and they're not as involved in the 
intricate day-to-day activities of these commissions, but we 
have to get blood from a stone, whatever that saying is, we 
would like to speak from a position of knowledge and have a 
good argument.
    Can some of these be consolidated? Is that an unreasonable 
request, and how do you prioritize these things?
    Mr. Balton. Mr. Chairman, I cannot, in good conscience, 
support or recommend consolidation. The two bilateral 
commissions we have with Canada in the Pacific--and you 
mentioned the Pacific Salmon Commission, the PSC, and the 
International Pacific Halibut Commission--are probably the two 
where that would be the least problematic. And even there, the 
fisheries are wholly different. The political interests, 
including in the United States, that relate to these fisheries 
are wholly different. The science that underlies them is 
completely different.
    Even if they were somehow put together, I don't know that 
there would be any cost savings achieved. All the same work 
would have to go forward. I just can't imagine how that would 
help--
    Mr. Gilchrest. It would be like bringing together a 
geologist and an astrophysicist and tell them to meet together 
and talk about these issues to save money.
    Mr. Balton. That might be one way of analogizing it.
    And then NASCO and NAFO, the same thing, only the problem 
is even more complex, as you noted, because there are many 
other countries who would need to agree to merge these 
organizations. I can tell you now, it won't happen. The 
interests underlying those treaties and the missions of those 
organizations are radically different.
    NASCO's mission is to prevent salmon fishing on the high 
seas and to minimize salmon fisheries on particularly troubled 
stocks everywhere else. NAFO is concerned with ground fish--I'm 
sorry. NASCO applies in the entire North Atlantic region. NAFO 
applies in the Northwest Atlantic only, covers a wide range of 
ground fish species, particularly off of Atlantic Canada in the 
so-called Nose and Tail of the Grand Banks and the Flemish Cap. 
It's very different fisheries, very different interests. Even 
if it were possible to combine them, once again, I don't think 
you would realize any cost savings.
    Mr. Gilchrest. Thank you very much.
    Mr. Grasso?
    Mr. Grasso. Just a brief comment, Mr. Chairman.
    In our estimation, we think that an effort, albeit well-
intentioned, to consolidate might be a little bit like 
rearranging the deck chairs on the Titanic, given the situation 
that we face on a number of these commissions and the lack of 
political will by a number of countries to take action to 
really address these problems.
    Our concern would be that the U.S. would have to expend too 
much political capital, negotiating restructuring rather than 
getting them to get other countries to really take some tough 
decisions, which in ICCAT, as you know, and other places like 
ICCAT, is one of the biggest challenges we face. White marlin, 
for example, in ICCAT, the Moroccan driftnet fishery, that's 
where we would like to see the emphasis put on U.S. leadership.
    Mr. Gilchrest. Thank you very much.
    Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman.
    In Fiscal Year 2004, $2.1 million was appropriated for the 
U.S. contribution to IATTC. I have heard rumors that this 
represents about 50 percent of the total IATTC budget. The 
International Dolphin Conservation Program Act of 1997 required 
the State Department to renegotiate the IATTC convention and 
develop a schedule of contributions for all member nations that 
would be more equitable based on their utilization of tuna in 
the eastern tropical Pacific.
    You know, this was a concern of the Committee a few years 
ago, but I just wanted to know what progress has been made in 
the accountability and transparency of the IATTC. In other 
words, is the U.S. paying dues proportionate to the utilization 
of tuna, what percent of the dues is that, are the other IATTC 
countries also paying dues proportionate to their utilization, 
and specifically, what percent of the dues does Mexico 
contribute?
    Mr. Balton. I think I can answer almost all of your 
questions now. A couple of the facts and figures I would have 
to get to you later.
    Mr. Pallone. Sure. If that's fine with you, Mr. Chairman, 
if he could get back to us.
    Mr. Balton. The big picture, Congressman, is a good one. We 
have responded to Congress' call. We have renegotiated that 
IATTC convention. We are, as with the others, hoping to submit 
it to the Senate very soon. It will restructure the IATTC in a 
number of ways, not only the financial aspect.
    But on the financial aspect, we also made great progress 
over the last decade. There was a time in the nineties when we 
were paying about 90 percent of the entire budget because so 
much of the focus of the IATTC was on the tuna/dolphin problem 
that the U.S. cared about very greatly.
    We have managed to bring our contributions to the IATTC 
down, both as a percentage of the overall budget and in 
absolute terms. There was a time when we paid $3-4 million a 
year to IATTC. Now we're down to about the $2 million level, 
and there is some prospect that it might go down--I think it is 
likely to go down further in the future.
    Why? A few new countries are likely to join IATTC to help 
share the burden.
    Mr. Pallone. What is that percentage-wise, though? Can you 
give us an idea, compared to the other countries?
    Mr. Balton. Our current contributions represent roughly 40 
percent of the IATTC budget, down as I said from about 90 
percent years ago. I would like to see it come down a little 
bit father, and as I was about to say, I think there is a 
prospect for that.
    The European Union is seeking membership in the revised 
IATTC. That will bring the cost down. Taiwan will be able to be 
a member of the commission as well and is another ``deep 
pocket'' that should bring the U.S. share of the overall budget 
down, both in absolute and in percentage terms.
    Mr. Pallone. What about Mexico? Do you know what percentage 
they pay?
    Mr. Balton. Their contributions range between $800,000 and 
a million a year. That represents about 20 percent of the 
budget.
    Mr. Pallone. So we're at 40 and they're at about 20 at this 
point.
    Mr. Chairman, I mentioned in my opening statement this 
article that was in the San Francisco Chronicle about 
allegations that observers aboard Mexican tuna fishing vessels 
operating under IATTC were regularly taking bribes, some up to 
$10,000 or more, to falsify that the tuna being caught on board 
were dolphin safe. According to this article, which I would 
like to submit for the record, Mr. Chairman--
    Mr. Gilchrest. Without objection.
    [The article follows:]
             U.S. eased rules on tuna despite bribery claim
               e-mail alleged effort to evade dolphin law

               Glen Martin. Chronicle Environment Writer

Wednesday, April 28, 2004
2004 San Francisco Chronicle
    The U.S. Commerce Department has been aware for five years of 
allegations that government observers on Mexican tuna-fishing boats 
were regularly taking $10,000 bribes to concoct false reports that they 
were not netting dolphins, according to an internal agency e-mail 
obtained by The Chronicle.
    Bush Administration lawyers have argued that the allegations were 
not relevant to the government's 2002 decision to relax restrictions on 
foreign- caught tuna. The decision allows tuna caught by foreign boats 
that set nets on dolphins--which follow the fish--to be sold in U.S. as 
dolphin-safe, provided the dolphins are released.
    Critics say the e-mail demonstrates that the Bush Administration 
ignored key evidence and that its decision undermined longstanding 
environmental protections.
    ``The whole basis for protecting dolphins in countries that set 
nets on them is that there are reliable observers on board,'' said Mark 
Palmer of Earth Island Institute, a San Francisco environmental group. 
``If the observers are being bribed, obviously, the entire program 
falls apart.''
    Last year, after Earth Island challenged the government's decision, 
an injunction by Judge Thelton Henderson of the U.S. District Court in 
San Francisco prevented implementation of the rule.
    For more than a decade, the dolphin-safe label has guaranteed U.S. 
consumers that the tuna they are buying was caught by nets that did not 
trap dolphins. Before U.S. regulation to protect them, dolphins that 
swim above schools of tuna in the eastern tropical Pacific were dying 
by the hundreds of thousands a year.
    The government says current dolphin kills are less than 1,500 a 
year. But dolphin species that were depleted by decades of losses have 
not recovered--a critical fact in the current case and one that the 
government says it can't explain.
    Commerce Secretary Donald Evans ordered the rule change under a 
1997 law that allowed dolphin-safe standards to be relaxed if supported 
by scientific research. Government lawyers have stated in court 
documents that the Commerce Department had ``not considered or relied 
upon'' the e-mail in reaching its decision to relax the standards.
    The 1999 e-mail was between staff members for the National Marine 
Fisheries Service, a branch of the Commerce Department. It noted that 
there were plausible reports that observers on Mexican tuna boats 
operating under the authority of the Inter-American Tropical Tuna 
Commission routinely were taking $10,000 bribes to falsify data on 
dolphin nettings.
    A copy of the e-mail was provided to The Chronicle by Earth Island 
Institute.
    According to the e-mail, an American fisherman who worked aboard 
Mexican tuna boats was interviewed by federal fisheries biologists. The 
fisherman claimed that ``although they always had observers on board, 
it was common knowledge throughout the fleet that the observers were 
regularly paid off to misreport what happened during the cruise.''
    The e-mail noted that the observers weren't being bribed to ignore 
dolphin deaths ``...because they apparently have relatively few. ... 
They were instead paid substantial sums of money to report their 
dolphin-caught tuna as 'dolphin-safe' when they were actually being 
caught on dolphins.''
    On April 15, Judge Henderson called government arguments that the 
e-mail was irrelevant to the rule ``specious.''
    ``Documents ... that go to the reliability or credibility of data 
relied upon by the decisionmaker are plainly relevant. ... The 
government's failure to acknowledge this point is deeply troubling and 
reveals a glaring omission in the manner in which the record was 
compiled,'' Henderson wrote.
    Maureen Rudolph, a U.S. Department of Justice attorney who 
represented the Commerce Department in the case, said she could not 
comment on the matter because it is being litigated. Justice Department 
spokesman Blain Rethmeier said government attorneys are responding to 
Henderson's order and are providing all documents relevant to the case.
    Palmer of Earth Island had obtained the e-mail from Defenders of 
Wildlife, another environmental group. The e-mail had been submitted by 
the government as part of its documentation in its response to a 
separate lawsuit Defenders of Wildlife had filed on tuna rules.
    David Burney, executive director of the U.S. Tuna Foundation, a 
group that represents the interests of the American canned tuna 
industry, said the possibility of corrupt observers ``is extremely 
serious, and it's certainly relevant to any review of the case. I would 
think it would have a real bearing on what it means to be dolphin-safe, 
and ultimately (Commerce's) position. IT should make the government 
take a harder look at this.''
    Burney said American tuna processors support the more stringent 
definition of dolphin-safe promoted by Earth Island Institute and other 
environmental groups. ``We absolutely will not buy dolphin-encircled 
tuna,'' he said. ``It's clear to us that U.S. consumers don't want it. 
I think any move in that direction would cause a big outcry.''
    E-mail Glen Martin at glenmartin&fchronicle.com.,
                                 ______
                                 
    Mr. Pallone. According to the article, NMFS was aware of 
the allegations as far back as 1999. There are e-mails between 
NMFS staff that confirm that as a fact. Obviously, it's 
troubling. So the questions I have about it and these 
allegations of bribery go to the heart of how the IATTC manages 
the fisheries, because if you don't have effective management 
with sound and reliable research or data, then you don't know 
whether you're really doing the right thing.
    The e-mails mentioned show that NMFS was aware, back in 
1999--and that was 5 years ago. I'm just trying to understand 
why this Subcommittee is just now finding this out through a 
newspaper article.
    We have established that the single largest contributor to 
the IATTC budget is the U.S., so again, it's kind of an 
embarrassment because we're spending all this money and is it 
really legitimate in terms of the management practices.
    The most deserving aspect is the fact that the 
Administration ignored this information and allegations of data 
falsification to allow Commerce Secretary Evans to propose 
regulations easing dolphin safe label standards on the false 
presumption that the fishery and the practice of setting on 
dolphins was having no significant adverse impact on dolphins.
    So I just wanted to ask Dr. Hogarth some questions. If you 
would explain to the Committee why this information, 99 e-mails 
between the staff and the allegations now just coming to light, 
why has it been 5 years since we found this out? And if you 
wanted to comment, I would like to have the response.
    Dr. Hogarth. Thank you, Mr. Congressman. I will respond. 
You know, we are still in litigation over the Tuna/Dolphin 
decision. But there is a compliance committee as part of the 
IATTC, that every observer report is looked at. When an 
observer comes in, IATTC looks at every one of those reports. 
If there is anything in there that an observer says that there 
was harassment or offer of bribes, anything, we go through the 
Compliance Committee, we look at those, and we make a 
determination if, based on all information--sometimes they go 
back and talk to the observer or talk to the captain--were 
those accusations true or not. If they feel like they were 
true, then action is taken against the countries, against that 
vessel, and they are to report back, the country that is 
responsible for those vessels. It is part of the open process. 
In fact, one of the NGO's served on that committee at one time 
while I was the Southwest Regional Administrator.
    So, you know, it is open as far as the Compliance Committee 
is concerned. It is not that it is sort of secret. It is part 
of the IATTC process to look at all of those observer reports 
and look at every comment that is made, whether it be bribes or 
harassment or any of those type things, we look at.
    Mr. Pallone. Well, then, you feel--I mean, I guess I am 
not--I am trying to, you know, go back to my initial questions. 
Do you feel, Doctor, that these were not true? I mean, was that 
the decision that was made, if allegations were false?
    Dr. Hogarth. Well, it would depend on the situation. 
Because I sat on it at one time, and some of them, you know, we 
felt like were obviously true and that captain may have--the 
country may have decided that he couldn't fish again, or--
    Mr. Pallone. So what actually happened in this case, then?
    Dr. Hogarth. Well, it depends on the case and the captain's 
record, you know, after interviewing people as to what action 
is taken. But here is action taken by the IATTC. It is part of 
the compliance process.
    Mr. Pallone. But I mean in terms of what this San Francisco 
Chronicle is reporting, what actions were taken as a result?
    Dr. Hogarth. Well, you have to, Mr. Congressman, you would 
have to go back and look at the specific case. I mean, there 
are many cases that we looked at in Compliance. So you look at 
that individual case. You would have to go back and find out 
what action was taken.
    Mr. Pallone. OK, but let me just put it to you this way, 
and I am not looking at, you know--I mean, I am being critical, 
but I am trying to get to the bottom of it. I think, with the 
Chairman's permission, if you could get back to us and explain 
what happened. I mean, I don't--I mean, the Chronicle is 
referencing certain cases. I would like to know, with the 
Chairman's permission, what happened to those cases and why it 
never came to light to the committee or anybody else. I mean, 
it may be that they were dismissed and you didn't think it was 
important. I don't know. But I would just like to have a 
response to the specific allegations.
    Mr. Gilchrest. Will the gentleman yield?
    Mr. Pallone. Sure.
    Mr. Gilchrest. The San Francisco Chronicle, this is an 
interesting proposal. If there is evidence that a country or a 
captain attempted or in fact did bribe an observer, then this 
is a violation. And one of the consequences of those 
violations--and does this paper have specific incidents of 
names of boats and individuals?
    Mr. Pallone. Well, there is an e-mail. I guess I can submit 
that for the record as well, with your permission, that went 
back and forth with regard to a specific incident--you know, 
the e-mails that I am talking about.
    Mr. Gilchrest. OK.
    [NOTE: The e-mail could not be reproduced and has been 
retained in the Committee's official files.]
    Mr. Pallone. We can enter that into the record. But I don't 
know offhand, Dr. Hogarth, if you can tell, you know, from the 
article itself specifically what they were referencing, but 
certainly the e-mail does reference a specific incident. And I 
guess what I would like to know is what happened as a result of 
the incident mentioned in the e-mails, and if you could 
determine for us what the incidents were that the Chronicle was 
mentioning and get back to us what happened in those cases.
    Dr. Hogarth. I will be happy to. I have not seen those 
articles, but if you could make sure I get a copy of the ones 
you are talking about.
    Mr. Pallone. Sure.
    Dr. Hogarth. But it is, you know, I am trying to--just 
publicly I want you to know that there is a process, there are 
many things we look at. It is not, you know, anything that is a 
coverup. We actually--it is an open compliance process that we 
look at.
    Mr. Pallone. Yes. In other words, what you are saying is 
whatever they are referencing, there has to be the incident, 
there has to be reporting and a conclusion to it.
    Dr. Hogarth. That is correct.
    Mr. Pallone. But you get back to us and tell us what that 
conclusion is. And then also, why--you know, if it is still 
outstanding and there was a problem, why we haven't found out 
about it. I mean, maybe it is because it was dismissed, I don't 
know. But if it wasn't, I think we should find out about it.
    Dr. Hogarth. Correct.
    Mr. Pallone. And then the other thing, again, this goes 
back to this again, is that the Bush Administration--well, as I 
said, you know, when we were making these changes--
    Well, let me read you the Chronicle article. The Chronicle 
article states, ``The Bush Administration argued in court that 
they had not considered this key information, when asserting in 
2003 that netting and chasing dolphins causes no significant 
adverse impacts on dolphins, because it was not relevant or 
quantifiable.''
    So what I am trying to find out is, you know, to what 
extent that information was available and should have been a 
factor in that decision as well.
    Dr. Hogarth. Mr. Congressman, I made that decision, the 
Tuna/Dolphin decision. We looked at every bit of information 
that we had available to us, including, you know, my period of 
time I sat on the IATTC, what I knew from that; from all the 
records we had, consultation with a number of different groups. 
So, you know, we looked at all of it and what we felt was best 
for the conservation of dolphin overall, I think, as Mr. Grasso 
said this morning, that program has been very successful. We 
reduced the mortality of dolphin by over 98 percent. And so it 
has been a very successful program.
    Like I said, we are still in litigation. There is not a lot 
more I can say except to tell you that I looked at every bit of 
information that was available to make that decision.
    Mr. Pallone. And so, again, I am sort of going back to the 
same thing again, Dr. Hogarth, which is whether these 
allegations of bribery that are referenced in these e-mails or 
in the San Francisco Chronicle article. you know, if you 
determined that they were not relevant to that policy. I would 
just like to know. Maybe you will find out after looking at it 
that they weren't, but I would like to know whether you thought 
they were relevant in some way.
    Dr. Hogarth. Let me just tell you that the backbone of that 
whole program is the observer program. All vessels are required 
to take observers. It is a backbone. And so we took observer 
comment very carefully into consideration, whether it be 
harassment--you know, we had female observers, we had cases 
when they would come back and say they had been harassed; we 
had people who said lots of things, including we were offered a 
bribe or we were offered this, that, and the other. Each one of 
those things was looked at very carefully in the compliance 
issue and, you know, part of the decision. But we feel like the 
decision we made was the right one and--
    Mr. Pallone. Yes, I understand. I just want you to get back 
to us to tell us whether these allegations were relevant to 
that policy decision. And then, if I could ask you, Mr. 
Chairman, I just had some specific questions that relate to the 
same. I think that would help him know exactly what I am asking 
with regard to this incident. If I could submit those 
questions.
    Mr. Gilchrest. Sure. Absolutely.
    Mr. Pallone. All right, thank you. I ran out of time on 
that, so I appreciate your work there.
    Mr. Gilchrest. I will ask a couple and we will come back to 
you.
    Mr. Pallone. OK.
    Mr. Gilchrest. Since we are on Tuna/Dolphin, as we so 
affectionately refer to it up here, one of the problems with 
the legislation as it went through and one of the amendments 
that were a part of that legislation was to do this evaluation 
or study over--I can't remember how long a period of time, 
maybe 5 years, to determine whether or not this practice of 
helping to chase the dolphins out of those purse-seine nets 
before they got tightened up would have any significant impact 
on the dolphin. And it is my understanding that, you know, we 
reduced the annual dolphin mortality from tens of thousands, 
maybe even as high as a hundred thousand or more, down to you 
don't want to kill any dolphin, any marine mammal. But it was 
significantly reduced, like you said, Dr. Hogarth, 90-some 
percent to maybe 2,000 or 3,000 annually from 100,000 annually.
    And then your ongoing evaluation shows, that you said to 
Mr. Pallone, there apparently is no significant biological 
impact to the dolphin as a result of this particular fishing 
practice. So we can more or less take that to the bank?
    Dr. Hogarth. Yes, sir, based on all the--and we continue to 
look at this issue. It is not one that we have dropped. We 
continue to look. But all indications are that, you know, I 
think the last time I looked at the record it was 1800 dolphin 
that year that were--you know, mortality, based on as high as 
350 thousand or more per year. We think it has been a very 
successful program. With all the measures, you know, observers, 
back-down, the whole way we operate that fishery is a very 
comprehensive way of operating. In fact, you have divers in the 
water and, you know, the whole process. And it is very--
    Mr. Gilchrest. What was the basis of the lawsuit and then 
what is the court considering with the evidence that you have 
explained to us, we have seen it in other venues. So the court 
is considering what, as far as this fishing practice is 
concerned? And I also understand that we have not imported any 
tuna that uses this practice from other countries.
    Dr. Hogarth. The court is just reviewing--there was a 
lawsuit brought by a group that my decision was incorrect, 
based on the data. So the courts are looking at the decision 
that was made.
    Mr. Gilchrest. So the court is comparing the data that this 
group brought to them plus the data that--
    Dr. Hogarth. Well, it is everything. The decision I made, 
whether it was arbitrary and capricious, this type thing.
    The second thing is that they can--foreign countries can 
export to this country, but they cannot get the dolphin-safe 
label.
    Mr. Gilchrest. I see.
    Dr. Hogarth. So that is the difference.
    Mr. Gilchrest. What is likely to happen to this whole 
agreement if the court rules against the practice?
    Mr. Balton. Mr. Chairman, I would be quite worried about 
the fate of the agreement if Dr. Hogarth's decision is 
overturned. The other countries who are in this agreement with 
us see getting the dolphin-safe label in the U.S. as the quid 
pro quo. They have invested a lot of money in getting their 
fleets to reduce dolphin mortality down 98 percent below 
historic levels, and they did so in the expectation that the 
dolphin that they catch through these greatly improved 
practices would be able to be sold in the U.S. market with the 
dolphin-safe label. If the label is not available to them, they 
may have very little incentive to continue to protect dolphins 
through the measures that we have agreed under this 
international program.
    Mr. Gilchrest. Let me follow up in another area that we 
have discussed today, those circle hooks that are apparently 
beneficial to reducing the bycatch of sea turtles. A country 
like Ecuador or a country that cannot afford, for whatever 
reason, to replace the hooks they have with circle hooks, is 
there any provision in the agreements with the different 
commissions to help supply or fund those circle hooks?
    Dr. Hogarth. No, sir. We have tried to the best that we can 
with our budget constraints in some areas to provide the hooks 
to them so that they will test them and they will see that it 
works. In fact, one of the real promises of the circle hook, 
that large--the 18/0 that we talk about--circle hook in the 
swordfish fishery, was you were catching a much nicer-size 
swordfish, larger swordfish and more valuable. At the same 
time, you were saving small swordfish. So it had a--you know, 
it was positive both from sea turtles and from swordfish.
    So once you can prove to them that the fishery is--they are 
catching better fish and probably getting a little more money, 
it is easier for them to spend the money. But we are trying to 
work with the big countries that can afford it and some of 
the--that have a large fleet, to pay and can afford it, but 
sometimes Ecuador and some of these others, we found that they 
couldn't. So we are trying to work with all of them to see what 
we can do to help. We don't have a lot of money, but it is 
worth buying some hooks if that is what it takes, I think.
    Mr. Gilchrest. So is there any tentative agreement that 
there will be a box at the end of the plenary session where 
people can drop a few coins in and earmark it for Ecuador or 
some other country like that?
    Dr. Hogarth. There are a couple of things going on right 
now. One of them is the World Wildlife Fund is trying to work 
with several other organizations, including us right now, to 
see if there is a way to set up a fund, an international fund 
that we can use for sea turtle conservation. In fact, we are in 
negotiation now with World Wildlife Fund over an MOU on some of 
these issues for international, worldwide. And I think there is 
a lot of promise there that we can get an international fund 
set up that could help conservation.
    We have got to protect nesting beaches along with these 
other activities, so we are looking at a big program, a large 
program that is sort of international that would have a funding 
mechanism.
    Mr. Gilchrest. We wish you well in all of that, and keep us 
informed so we can be as much help as possible.
    Mr. Balton. Mr. Chairman, may I add something to that?
    Mr. Gilchrest. Certainly.
    Mr. Balton. The State Department receives a small amount of 
U.S. foreign assistance monies for use on international 
environmental projects. And we are breaking off a small part of 
that to help with this very project that Dr. Hogarth has 
mentioned. We do believe that we need to help the developing 
countries do what we are asking them to do to protect sea 
turtles in the course of long-line fishing, and we believe it 
is worth some of this foreign assistance money to be devoted to 
that very effort.
    Mr. Gilchrest. We could probably take half of the 
Presidential campaign money and just solve all these problems. 
Not to mention members of Congress and their campaign. We 
should have a little checkoff.
    Just one other quick question. We hear a lot about sharks, 
shark finning in certain areas of the world, depletion of shark 
stocks for any one of a number of reasons. Has ICCAT ever 
considered managing sharks?
    Dr. Hogarth. ICCAT, we have had several resolutions on 
sharks. We are still working on that issue. I think that you 
will see further action taken on sharks internationally and 
particularly through ICCAT. We also have started a new program 
on the West Coast that has got some--Japan is cooperating. It 
is called COPs. I am not sure I know exactly what it stands 
for, but it is a large program now that is doing satellite 
tagging--sea turtles, sharks, and some of the highly migratory 
species. It is a pretty comprehensive program, and sharks is a 
big part of that, to look at the movements and all of sharks. 
So I think there will be further management of sharks in the 
future, that we are learning a lot more on what we need to do.
    Mr. Gilchrest. Do you think there is a need for it?
    Dr. Hogarth. Yes, sir, I think it is a need for shark 
management internationally, for several reasons--the finning, 
which we are all getting under control to a large extent, but I 
think just to the life history of sharks, the fact that they 
are so late in life when they reproduce and so few pups, I 
think we have learned that there is a lot more we need to do. 
Some of them, we found out, on the West Coast do not move 
extensively. They have a greater homing device, so to speak. In 
fact, the first hundred satellite tags that were put out on the 
West Coast, all hundred of them were recovered almost within 
several months running in the same area. So I think we--from a 
management standpoint we are learning more about what we need 
to do to manage.
    Mr. Gilchrest. Thank you very much.
    Mr. Pallone?
    Mr. Pallone. I just have a few more questions. And I am 
going back to the dolphins again.
    Dr. Hogarth, you mentioned that dolphin mortality has been 
decreased by 98 percent. But then my question is why haven't 
the two principal dolphin populations not recovered? It is my 
understanding that population growth is stagnant or minimal. 
Could you just explain this? Are there other factors?
    Dr. Hogarth. That was one of the key issues that we were 
trying to look at, is what other factors, environmental factors 
we know have an impact on the dolphin, how they move and also 
on reproduction. That is a very difficult issue to get at 
totally with the sampling we were able to do. We tried to work 
off of most countries. We worked a lot off of Mexico, but we 
had a pretty comprehensive international program. But we felt 
like that with all the evidence we had, the chasing of dolphin 
was not evident--a great impact, no sir.
    Mr. Pallone. And then I wanted to ask about the ICCAT, the 
international commission, you know, the ICCAT Commission. Last 
year, through the Subcommittee, we passed H.Con.Res. 268, 
designed to encourage countries to make every effort to end 
illegal, unregulated, and unreported fishing and to use 
diplomatic efforts to ensure ICCAT members comply in that 
respect. But one important management step being taken to 
conserve ICCAT species is collecting reliable recreational 
catch data. This is always an issue in my district. It has come 
to my attention that recreational catch accounting is poor for 
other countries. Poor data coupled with lax enforcement could 
potentially undermine ICCAT conservation strategies.
    So I just wanted to ask what steps are being taken by ICCAT 
to collect reliable recreational catch data from other ICCAT 
countries, other than the U.S.
    Dr. Hogarth. That is a good question. We last year pushed 
real hard for a program at ICCAT for improved data collection, 
period, from all countries. In fact, we contributed $20,000 
U.S. money to that effort to get the SCRS, the scientific 
group, to work with all countries to improve data collection. 
We will see if we were successful this November. Basically, 
ICCAT is from year to year, and we will find out when we get to 
a hearing in Louisiana in November were we successful in this 
effort to work with the countries.
    That is the key, right now, is not only recreational data 
in ICCAT, but a lot of data, period. In fact, you cannot do a 
stock assessment for Eastern bluefin tuna, because we do not 
have sufficient data, both commercial and recreational. So we 
are pushing very hard for improved data collection and we are 
trying to fund as much as we can to help some of these smaller 
countries.
    Mr. Pallone. OK, and then I just wanted to ask one last 
thing about endangered species, change in the Fish and Wildlife 
Service policy regarding the trade of endangered species. In 
August of last year's Federal Register, there was a notice--
that was August 18th--a notice of proposed rulemaking was 
announced regarding the importation of endangered species for a 
variety of purposes. And the proposal purports to advance the 
propagation or survival of endangered species through 
legitimized trade of them. It seems to me it is a rather 
radical departure from the Government's 30-year strategy to 
conserve threatened and endangered wildlife by vigorous and 
diligent efforts to restrict and not promote opportunities for 
international trade in wildlife or wildlife products.
    So I just wanted to ask why has the Fish and Wildlife 
Service chosen to reverse its longstanding policy of 
restricting imports of endangered species, what is the current 
status of the proposed rule, and wouldn't you agree that by 
providing a safe haven for the killing or other taking of 
endangered species, you have provided an incentive against the 
conservation of endangered species?
    Dr. Stansell. Thank you, Congressman. I appreciate the 
opportunity to try to at least clarify the purpose of that 
proposal. There was a considerable amount of confusion, and I 
think rightly so. There were two or three proposals that were 
out on the street for public comment at the same time--two that 
dealt specifically with changes to the permitting regulations 
for endangered species, for domestic species, and we also had a 
proposed policy consideration out on the street. And I think 
there was considerable confusion among the public on exactly 
who was proposing what and for what purpose.
    Specifically for the policy, what we were looking at is we 
currently have the authority under the Endangered Species Act 
to issue permits where we can make a determination that the 
activity would enhance the conservation of the species in the 
wild. And for the last decade, I would say, we have been 
looking at the relationship between the Convention on 
International Trade and the available opportunities under that 
convention as compared to species that are listed under that 
convention and also listed under the Endangered Species Act. 
And our intent with that policy was to try to harmonize, to the 
extent that we could, some of those opportunities, looking at 
where, for example, under the Convention on International 
Trade, they may allow the regulated trade in ranched specimens 
of crocodiles, where it has been demonstrated that that trade 
would actually, under CITES, not be detrimental. We have those 
species, perhaps, listed technically as endangered under our 
domestic law, and what we were hoping to look at were ways in 
which we might be able to encourage further conservation of 
those species through those mechanisms.
    So there was never any intent to overturn the longstanding 
position that we have had relative to the conservation of 
endangered species, but an opportunity to take a look at some 
very specific opportunities that we felt would actually 
encourage developing countries to go beyond what the CITES 
parties would allow.
    Mr. Pallone. But what is the status of that now, the rule?
    Dr. Stansell. Due to the response that we got, we received 
literally thousands of comments, and as I said, particularly, I 
think, because of the confusion. We are currently analyzing the 
substantive comments that we received and, based on those 
comments, will decide whether or not we would move forward at 
all. As I said, this was--currently there is no regulatory 
change that needs to be made. It would be simply a policy 
decision. And since we had historically not been able to make 
those enhancement findings even in those very limited cases, 
that is why we felt like a public review process was in order.
    Mr. Pallone. But is there likely--just one last question. 
Is a likely result of, you know, when you are done, that we are 
going to have some kind of legitimized trade in these? I mean, 
is that what you think is going to happen in terms of what you 
ultimately--I know you haven't made a final decision, but that 
is a possibility?
    Dr. Stansell. If we would move forward with some ultimate 
decision on the policy, then that certainly would allow us to 
look at individual situations, as I indicated, between the--if 
there is a disparity between our domestic law and CITES, for 
example, to see if there is a way in which we could further 
encourage the conservation of those species.
    Mr. Pallone. I mean, I understand what you are saying, but 
I would have serious questions to think that that kind of trade 
would result in conservation. That is my own view. But I guess 
you will have to decide that, and you are going to get back to 
us at some point.
    Dr. Stansell. Yes, sir. And I appreciate that. We do have 
examples for a number of species that are considered threatened 
under our domestic law that demonstrate that there is this 
positive conservation benefit. And we are currently looking at 
all the additional data that might be available to see if it is 
in fact applicable to more restricted species. But we will 
certainly be working with the Committee before we move forward 
on any final proposal.
    Mr. Pallone. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    I think it would be a good idea to work with the Committee 
because if something like that happened, we would be pummeled 
with more than thousands, as you were, of requests.
    So our interest is in conservation and recovery of those 
endangered species. So if this would enhance the recovery and 
bring the species back so that they wouldn't be endangered or 
threatened anymore, that would be one thing. But anything short 
of that, I think, would be suspect. So we would like to work 
with you on that.
    I do want to ask you another question, Dr. Stansell, if I 
could. Beluga sturgeon. I guess U.S. Fish and Wildlife Service, 
your position on the beluga sturgeon is that they are 
threatened. Now, my question is, if our position regarding the 
threatened status of beluga sturgeon is a part of our 
understanding, how does that affect the international trade and 
importation of beluga sturgeon caviar?
    Dr. Stansell. Thank you, Mr. Chairman.
    Mr. Gilchrest. It is always nice when people thank us for 
these tough questions. I do the same thing at town meetings--
thank you for that question.
    [Laughter.]
    Dr. Stansell. Actually, looking at all of the data that we 
had available relative to the beluga, we have determined and 
recently published a Federal Register notice that would list 
the beluga as a threatened species. We are concerned about the 
current harvest. We are concerned about the loss of habitat and 
a number of issues dealing with illegal take of beluga in range 
countries. The ``threatened'' designation would ultimately 
provide all protections under the Endangered Species Act for 
imports into the United States. Since the ESA is a stricter 
domestic measure, we really can't stop, if you will, the 
harvest that is going on. And our proposal with the beluga is 
we have delayed the implementation of that threatened listing 
for 6 months.
    Mr. Gilchrest. Why is that?
    Dr. Stansell. During that period of time, we are working 
very closely with the Convention on International Trade in 
Endangered Species that currently regulates the export of 
beluga. In June there will be a number of decisions taken by 
the convention that will significantly affect the international 
trade in those species, and we wanted to make sure that any 
final decision relative to restricting imports into the United 
States took that information into account.
    Mr. Gilchrest. So that is going to happen in June?
    Dr. Stansell. Yes. That will be happening in June, and 
then--
    Mr. Gilchrest. Well, if the sturgeon species, it is clear 
that biologically it is threatened and the U.S.--working with 
the international community, which is very important--will the 
U.S. then ban the import of sturgeon caviar?
    Dr. Stansell. We believe that the species is threatened 
right now, and that is the designation that we made. That 
doesn't necessarily mean that a ``threatened'' designation 
would result in a ban on all import.
    Mr. Gilchrest. On all import?
    Dr. Stansell. On all import into the United States.
    Mr. Gilchrest. What, on some import?
    Dr. Stansell. It could be some imports.
    Mr. Gilchrest. Why wouldn't we--now, if it was endangered, 
would we ban all imports of sturgeon caviar?
    Dr. Stansell. Yes. The endangered species--
    Mr. Gilchrest. Would we then just drastically limit the 
importation of caviar?
    Dr. Stansell. The ``threatened'' designation gives us the 
opportunity to publish a regulation that could prohibit all 
imports, depending on our consultations, or could provide a 
mechanism where--some countries are doing a very good job of 
managing their beluga populations. So we could look at, again, 
through this relationship, we could write a regulation that 
could encourage set standards, if you will, to meet a higher 
standard for the conservation of their species. If they meet 
those standards, then we could allow some import into the 
United States.
    Mr. Gilchrest. So we are likely to ban some imports, and 
the others that we wouldn't ban would be from those countries 
who have a recovery plan for beluga sturgeon?
    Dr. Stansell. Yes, sir, that is a good way to put it.
    Mr. Gilchrest. OK. Would we then require a permit for 
importation, to guarantee where this stuff is coming from?
    Dr. Stansell. All sturgeon are listed under Appendix 2 now, 
so under the Convention on International Trade a permit is 
required.
    Mr. Gilchrest. Right now?
    Dr. Stansell. Right now. And so we would make sure that--
there is a number of ways that we could do that, either issuing 
an additional permit under the Endangered Species Act, or 
actually piggy-back on the CITES permit under certain 
circumstances.
    Mr. Gilchrest. I read an article from the New England 
Journal of Medicine that quoted a number of medical doctors 
saying that beluga sturgeon caviar enhanced the possibility of 
getting Alzheimer's.
    Dr. Stansell. I am not aware of those.
    Mr. Gilchrest. Actually, I am just kidding.
    [Laughter.]
    Mr. Gilchrest. If we could put that out in the record, we 
might reduce the--we should encourage people to eat chicken 
eggs. I don't know how people eat caviar. I just don't know.
    Dr. Stansell. It would be those individuals that could 
afford a very high-priced commodity.
    Mr. Gilchrest. I thought all of you were going to bust out 
laughing when I said that, but you all just stood there with 
serious expressions on your faces. We have a poker game going 
on after this.
    Mr. Grasso?
    Mr. Grasso. It is just that you are so believable, Mr. 
Chairman, it doesn't matter what you say.
    I would just like to note our Wildlife Trade Monitoring 
Program known as TRAFFIC has done a great deal of work on this 
particular issue, including looking at providing alternative 
types of caviar to encourage people to eat other things besides 
beluga. And if I may, I would just like to ask they provide 
some information to the Committee for your consideration.
    Mr. Gilchrest. It would be very welcome. Thank you, Mr. 
Grasso.
    I have one last very quick question and I guess we could 
have a quick response to it. Everybody wants to go to lunch.
    The International Whaling Commission--Dr. Hogarth, you 
mentioned this very early in your testimony--is opposed, 
apparently, to lethal takes of whales. Now, there are a couple 
of countries that we are aware of that do not refer to that as 
lethal take of whales; they refer to it as scientific research. 
And I believe that is Japan and Iceland. What is the IWC's 
position on their scientific research of whales, and what is 
the U.S. position on Iceland and Japan doing that?
    Dr. Hogarth. Well, the U.S. position on Japan is--they made 
very clearly it is over 700 a year, and that we have taken 
Pelly certification against Japan. Iceland is now under 
consideration. Iceland took only 36 last year. They started off 
saying they were going to take 250 of three different species. 
They reduced it to only Minkes, which are not over-fished, and 
they only took 36. But we are still looking at Iceland right 
now.
    The IWC scientific committee looks at these proposals, and 
I think they have not adopted either one. And that is how we 
are trying to get to the revised management scheme so there 
will be criteria for which all of this will be made. So we feel 
like that is the way it has to go, but right now we are 
opposed.
    Mr. Gilchrest. The U.S. and the IWC is opposed to both 
Iceland and Japan?
    Dr. Hogarth. That is correct. Yes, sir.
    Mr. Gilchrest. All right, thank you very much. Mr. Pallone, 
any further questions?
    Yes, sir, Dr. Hogarth?
    Dr. Hogarth. I would just like to say one thing in closing. 
I think the Congress's interest in international is very 
important. I noticed it last year at ICCAT, when you were 
there, and we have had other members in time, and part of your 
staff have come to these meetings. It is very important to show 
the interest of the U.S. Congress in these negotiations. They 
are tough. Sometimes I am not sure that we have the same status 
that we have had in the past due to, you know, we are not as 
big a fishing nation as we used to be and things like that. So 
I just want to thank you, because I think it is extremely 
important for the interest that you all are showing in 
international. We continue to look internally as to how we can 
improve our negotiation and our status and just how we conduct 
international activities. But I just wanted to thank you and 
the Subcommittee for it, because it is extremely important. 
When the countries know that Congress is behind you, it makes a 
big difference, in my opinion. So thank you.
    Mr. Gilchrest. Well, we are going to stand like a rock. I 
thank all of you, Mr. Balton, Dr. Hogarth, Dr. Stansell, Tom 
Grasso. Thank you all for coming this morning. We appreciate 
your testimony and will continue to work with you.
    The hearing is adjourned.
    [Whereupon, at 12:00 p.m., the hearing was adjourned.]

                                 <all>

</pre></body></html>
